<html>
<title> - EXAMINING THE TRAGIC EXPLOSION AT THE KLEEN ENERGY POWER PLANT IN MIDDLETOWN, CT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
   EXAMINING THE TRAGIC EXPLOSION AT THE KLEEN ENERGY POWER PLANT IN 
                             MIDDLETOWN, CT

=======================================================================

                             FIELD HEARING

                               before the

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN MIDDLETOWN, CT, JUNE 28, 2010

                               __________

                           Serial No. 111-70

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
56-927                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a7c0d7c8e7c4d2d4d3cfc2cbd789c4c8ca89">[email&#160;protected]</a>  

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Susan A. Davis, California           Tom Price, Georgia
Raul M. Grijalva, Arizona            Rob Bishop, Utah
Timothy H. Bishop, New York          Brett Guthrie, Kentucky
Joe Sestak, Pennsylvania             Bill Cassidy, Louisiana
David Loebsack, Iowa                 Tom McClintock, California
Mazie Hirono, Hawaii                 Duncan Hunter, California
Jason Altmire, Pennsylvania          David P. Roe, Tennessee
Phil Hare, Illinois                  Glenn Thompson, Pennsylvania
Yvette D. Clarke, New York           [Vacant]
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director
                                 ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

                LYNN C. WOOLSEY, California, Chairwoman

Carol Shea-Porter, New Hampshire     Cathy McMorris Rodgers, 
Donald M. Payne, New Jersey              Washington,
Raul M. Grijalva, Arizona              Ranking Minority Member
Timothy H. Bishop, New York          Peter Hoekstra, Michigan
Phil Hare, Illinois                  Joe Wilson, South Carolina
Gregorio Kilili Camacho Sablan,      Tom Price, Georgia
  Northern Mariana Islands


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 28, 2010....................................     1

Statement of Members:
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut.......................................     1
        Prepared statement of....................................     4
        Additional submission:
            Crabb, Carle Ray IV, brother of Ron Crabb, prepared 
              statement of.......................................    40
    DeLauro, Hon. Rosa L., a Representative in Congress from the 
      State of Connecticut.......................................     5
        Prepared statement of....................................     7
    Larson, Hon. John B., a Representative in Congress from the 
      State of Connecticut.......................................     8
        Prepared statement of....................................     9
    Murphy, Hon. Christopher S., a Representative in Congress 
      from the State of Connecticut..............................    10
        Prepared statement of....................................    11

Statement of Witnesses:
    Badamo, Edward, fire chief, South Fire District..............    27
        Prepared statement of....................................    29
    Bresland, Hon. John S., U.S. Chemical Safety Board...........    13
        Prepared statement of....................................    14
    Corbett, Glenn, associate professor and chair, department of 
      protection management, John Jay College of Criminal Justice    36
        Prepared statement of....................................    38
    Giuliano, Hon. Sebastian, Mayor, Middletown, CT..............    25
        Prepared statement of....................................    26
    Nevas, Judge Alan H., Chair, Governor's Kleen Energy Systems 
      and Explosion Origin and Cause Panel.......................    30
        Prepared statement of....................................    33
    Thomas, Jodi M., wife of Ron Crabb...........................    22
        Prepared statement of....................................    23


                     EXAMINING THE TRAGIC EXPLOSION
                    AT THE KLEEN ENERGY POWER PLANT
                           IN MIDDLETOWN, CT

                              ----------                              


                         Monday, June 28, 2010

                     U.S. House of Representatives

                 Subcommittee on Workforce Protections

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:00 a.m., City 
Hall Council Chambers, 245 deKoven Drive, Middletown, 
Connecticut, Hon. Joe Courtney [member of the committee] 
presiding.
    Present: Representative Courtney.
    Also Present: Representatives DeLauro, Larson and Murphy.
    Staff Present: Lynn Dondis, Labor Counsel, Subcommittee on 
Workforce Protections; James Schroll, Junior Legislative 
Associate, Labor; Loren Sweatt, Minority Professional Staff 
Member.
    Mr. Courtney. The proceedings of the Subcommittee on 
Workforce Protections will come to order.
    For some of the guests who are here today who maybe have 
some questions about the proceeding that we're holding this 
morning, I'm Congressman Joe Courtney. We're joined here by 
other Members who will be introduced in a moment.
    I sit on the House Education and Labor Committee which is 
the Committee of the House of Representatives which has 
cognizance or supervision of laws and regulations concerning 
workplace safety. This is a Committee which really beginning on 
February 7th has been in constant contact with local officials, 
federal officials, Members here in the delegation. They've been 
tracking the events here because there are issues involved here 
that intersect with the Occupational Health and Safety Act, as 
well as other federal regulations which they have been working 
on prior to the incident on February 7th and certainly 
subsequent.
    The purpose of this proceeding is really to hear directly 
from the witnesses that have been invited this morning so that 
the Committee can learn more about what happened and use that 
in its decision making about possible legislation and other 
actions which the Committee may take action on.
    We had hoped this morning that the Chair of the 
Subcommittee, Congresswoman Lynn Woolsey from California, was 
going to be in attendance. She had been in constant contact, 
particularly with Congresswoman DeLauro about holding this 
hearing today by the Subcommittee. Unfortunately, she became 
ill over the weekend and was unable to make the flight in from 
California to Connecticut. So as someone who sits on the 
Committee, she asked me to pinch hit this morning which I'm 
certainly happy to do, but obviously we're joined by other 
Members of the delegation who have been very deeply involved in 
this issue and this incident and they certainly will be part of 
the proceedings as far as asking questions to the witnesses 
that are here today.
    And without objection, all Members will have 14 days to 
submit additional materials for the hearing record.
    Lynn had prepared a few remarks which again, from the 
Committee's standpoint, wanted to sort of set the context here 
this morning. And again, on her behalf, I want to thank the 
witnesses for being in attendance this morning.
    I particularly want to thank Jodi Thomas for being here 
today. This is not easy and we are honored that you are here 
today. Judge Thomas, the Probate Judge of Colchester does an 
outstanding job for the community, and it's going to help all 
of us I think better understand about what needs to be done to 
protect our workers, generally, and also from this inherently 
dangerous gas blow procedure.
    I think all the Members here are really interested in 
urging OSHA to move forward in terms of learning more about 
what actually happened and steps that could be taken to ensure 
that it does not happen again.
    Six good men were killed as a result of this explosion. At 
least 50 others were injured. Our thoughts again are with the 
surviving family members. The Dobratz family is also here 
today. I want to recognize them and thank them for being in 
attendance. Again, they lost Raymond Dobratz, who was an 
outstanding member of the community of Old Saybrook, 
Connecticut, and again our heart goes out to you and our 
thoughts and our prayers are with you.
    Again, I want to welcome Congresswoman DeLauro, Congressman 
Larson, Chris Murphy, who are all here today.
    Again, from Lynn's standpoint, she wanted to set the 
context of why the Congress is concerned about what happened in 
Middletown, Connecticut. It's important to recognize that this 
has been a tragic year for the American worker.
    On April 2, a blast at the Tesoro oil refinery in 
Anacortes, Washington caused the deaths of seven workers who 
were engulfed in a ``firewall.'' In 2010, 47 mine workers in 
coal and metal/non-metal mines have been killed at work, higher 
than all the mining fatalities in 2009. This includes the 29 
miners who were killed on April 5 when a massive explosion 
ripped through the Massey Energy's Upper Big Branch mine in 
Montcoal, West Virginia.
    As early as this week, a number of us on the Committee are 
going to be introducing legislation to reform the Mine Safety 
and Health Administration to again address obvious gaps in the 
law that could have prevented that tragedy from happening.
    On April 20, 11 workers were lost and 17 injured following 
an explosion on the Deepwater Horizon drilling ship leased by 
BP in the Gulf of Mexico. That disaster, obviously, is tragic 
for the families of those 11 workers for which our Committee 
held a hearing last week. And the spill is so enormous that the 
environmental and economic effects will be felt in the Gulf 
region for years to come.
    These accidents all have a common thread. All of them are 
caused by methane or other flammable gases which were allowed 
to leak or to build up to dangerous levels and then exploded 
because they found ignition sources. Aside from these more 
visible accidents, there are thousands of equally tragic deaths 
that occur in ones and twos, away from the limelight.
    So it's important that we as a nation begin to address the 
flaws that may exist within our regulatory and legal structure 
and that's the purpose of today's proceeding.
    Today, we are examining the blast at Kleen Energy, 
specifically the pipe cleaning procedure known as a ``gas 
blow'' that caused the explosion. When a natural gas power 
plant is built, piping must be installed to connect the 
turbines producing the energy with a natural gas pipeline. That 
piping must be cleaned to remove any debris that could damage 
the turbines. The cleaning is accomplished by forcing an 
element, such as natural gas, steam, air, nitrogen, or water, 
through the piping at high pressure.
    The Chemical Safety Board which is represented here today, 
an independent federal agency charged with investigating 
industrial chemical accidents, has been investigating the 
incident at Kleen Energy. And it has determined that using the 
``gas blow'' procedure to accomplish the cleaning is 
``inherently dangerous'' because the gas is highly flammable. 
Air, steam or nitrogen are much safer and just as effective in 
removing the debris.
    Despite safer alternatives, the use of natural gas is still 
popular.
    It is important to note that General Electric, which 
supplies most of the turbines to these plants--although not the 
one installed at Kleen Energy--is recommending that air blows 
and other alternatives to natural gas be used when cleaning the 
piping for their own product. That is good because as 
unbelievable as this sounds, there is no law, regulation, 
standard or code--either in Connecticut or on the federal 
level--that directly regulates the ``gas blow'' procedure in 
natural gas power plants. This is especially troublesome 
because more and more power plants are being built each year. 
The Department of Energy projects that 125 natural gas plants 
are going to be built over the next 5 years, so this is 
obviously a very relevant issue for our nation which is 
obviously addressing issues of trying to get to cleaner energy 
sources to deal with this procedure.
    We need to fix the problem, and the CSB has made urgent 
recommendations to OSHA and other organizations, such as the 
National Fire Protection Association, which issues voluntary 
consensus codes for industry to use to prevent fires and 
explosions. We invited NFPA to testify here today, and it 
declined. Based on NFPA's recent rejection of even modest 
changes to its gas code, it is becoming increasingly doubtful 
whether the NFPA will follow CSB's recommendations. If those 
that are being asked to act, do not take action, Congress 
should move swiftly to protect workers at natural gas power 
plants from this dangerous procedure. If we are going to send 
workers into harm's way, we need to ensure that they are safe 
and healthy at work and return to their families each day.
    Again thank you all so much for coming today and I look 
forward to your testimony.
    Now I would like to recognize the gentlewoman from the 3rd 
Congressional District of Connecticut who represents the City 
of Middletown who has been there with this issue from February 
7th and on, Congresswoman Rosa DeLauro.
    [The statement of Mr. Courtney follows:]

 Prepared Statement of Hon. Joe Courtney, a Representative in Congress 
                     From the State of Connecticut

    I want to thank you all for agreeing to testify today about the 
tragic explosion in February at the Kleen Energy Power Plant in 
Middletown, Connecticut.
    Six good men were killed as a result of this explosion, and at 
least fifty others were injured.
    The Occupational Safety and Health Administration (OSHA) is 
currently investigating the blast.
    So, OSHA is not testifying today because its inquiry has not been 
completed.
    OSHA officials have informed me that OSHA expects to complete its 
investigation later in the summer, and we all look forward to learning 
what it has discovered and what actions it intends to take.
    Our thoughts are with Ms. Thomas who will be testifying today about 
her husband Ron Crabb, and Carle Crabb, Ron Crabb's brother, who I 
understand is in the audience today.
    The Dobratz family is also here.
    They lost Raymond Dobratz in the explosion.
    My heart goes out to you and to others who lost loved ones at the 
Kleen Energy site in this senseless accident.
    I want to welcome my Connecticut colleagues, Representatives 
Delauro, Larson and Murphy, all of whom are sitting with me on the dais 
today.
    We are all making sure we take steps to prevent a similar explosion 
in the future.
    This has been a tragic year for the American worker.
    On April 2, a blast at the Tesoro oil refinery in Anacortes, 
Washington caused the deaths of seven workers who were engulfed in a 
``firewall.''
    So far in 2010, forty-seven miners in coal and metal/non-metal 
mines have been killed at work, higher than all the mining fatalities 
in 2009.
    This includes the twenty-nine miners who were killed on April 5 
when a massive explosion ripped through Massey Energy's Upper Big 
Branch mine in Montcoal, West Virginia.
    As early as this week, we are introducing mine legislation that 
will help prevent a disaster of this magnitude from ever happening 
again.
    On April 20, eleven workers were lost and seventeen injured 
following an explosion on the Trans-Ocean Deepwater Horizon drilling 
ship leased by BP in the Gulf of Mexico.
    That disaster is tragic for the families of those eleven workers, 
and the spill is so enormous that the environmental and economic 
effects will be felt in the gulf region for years to come.
    These accidents have a common thread--all of them were caused by 
methane or other flammable gasses, which were allowed to leak or build 
up to dangerous levels, and then exploded because they found ignition 
sources.
    Aside from these more visible accidents, there are thousands of 
equally tragic deaths that occur in ones and twos, away from the 
limelight.
    So we have our hands full.
    Today we are examining the blast at Kleen Energy, and specifically 
the pipe cleaning procedure, known as a ``gas blow'' that caused the 
explosion.
    When a natural gas power plant is built, piping must be installed 
to connect the turbines producing the energy with a natural gas 
pipeline.
    The piping must be cleaned to remove any debris that could damage 
the turbines.
    The cleaning is accomplished by forcing an element, such as natural 
gas, steam, air, nitrogen or water through the piping at a high 
pressure.
    The Chemical Safety Board, an independent federal agency charged 
with investigating industrial chemical accidents, and represented here 
today, has been investigating the incident at Kleen Energy.
    It has determined that using the ``gas blow'' procedure to 
accomplish the cleaning is ``inherently dangerous'' because the gas is 
highly flammable.
    Air, steam or nitrogen are much safer and just as effective in 
removing the debris.
    Despite safer alternatives, the use of natural gas is still 
popular.
    Let me note that General Electric, which supplies most of the 
turbines to these plants--although not the one installed at Kleen 
Energy--is recommending that air blows and other alternatives to 
natural gas be used when cleaning the piping.
    That is good because as unbelievable as this sounds, there is no 
law, regulation, standard or code--either in Connecticut or on the 
federal level--that directly regulates the ``gas blow'' procedure in 
natural gas power plants.
    This is especially troublesome because more and more power plants 
are being built each year.
    We need to fix the problem, and the CSB has made urgent 
recommendations to OSHA and other organizations, such as the National 
Fire Protection Association (NFPA), which issues voluntary consensus 
codes for industry to use to prevent fires and explosions.
    We invited NFPA to testify here today, and it declined.
    Based on NFPA's recent rejection of even modest changes to its gas 
code, it is becoming increasingly doubtful whether the NFPA will follow 
CSB's recommendations.
    If those that are being asked to act, do not take action, Congress 
should move swiftly to protect workers at natural gas power plants from 
this dangerous procedure.
    If we are going to send workers into harm's way, we need to ensure 
that they are safe and healthy at work and return to their families 
each day.
    Again thank you all so much for coming today and I look forward to 
your testimony.
                                 ______
                                 
    Ms. DeLauro. Thank you very much, Congressman Courtney. I'm 
delighted to be here this morning and if I might just take a 
second and recognize a couple of folks who are here, people 
that we've worked with over these last several months. State 
Representative Joe Serra is here; our former State Senator, 
Billy Ciotto; John Olsen, head of the Connecticut AFL-CIO; 
State Representative Linda Orange from Colchester; and 
Councilman Bauer. This has been a collaborative effort of 
federal, state, and local officials to try to determine what 
happened and how we try to move forward.
    I would also like to thank today's distinguished panel. 
Mayor Giuliano, thank you. Fire Chief Edward Badamo; the 
Honorable John Bresland, a former Chair of the U.S. Chemical 
Safety and Hazard Investigation Board, a Member; and also here 
to welcome the new Chair of the CSB, Rafael Moure-Eraso; and 
also a new Member, Mark Griffin, who was here and they were 
confirmed by the Senate last Thursday. We also have Professor 
Glenn Corbett of the Department of Protection Management, and 
John Jay College of Criminal Justice; the Honorable Alan Nevas, 
Chair of the Governor's Panel into the Kleen Energy explosion; 
and Jodi Thomas, whose husband, Ron Crabb, perished in this 
terrible explosion.
    Thank you for contributing today. We thank you for your 
broader efforts in the wake of this tragedy. I know local 
leaders such as Mayor Giuliano and Chief Badamo, as well as 
representatives from Kleen Energy Systems, have all been 
working very hard over the past few months to figure out 
exactly what happened last February. I thank you for your 
diligence. I stood with the Mayor and with the Chief on the 
night of February 7th and if nothing but the quick reaction, 
the concerned reaction for the loss of life and for trying to 
secure the facility, it was apparent that our local responders 
knew what they were doing and were carrying out their task 
effectively.
    I would also like to say a thank you to my colleagues, 
Chairman George Miller and Chairwoman Lynn Woolsey. We are 
obviously all concerned that Lynn is not well, but we thank 
them for agreeing to hold this field hearing of the Workforce 
Protections Subcommittee here in Middletown; and to Congressmen 
Courtney, who sits on the Committee; and to my colleague, John 
Larson. John Larson and I share the responsibility for 
representing Middletown in the United States House of 
Representatives. I'm delighted to be joined by Congressman 
Murphy as well this morning.
    From Day One, the Subcommittee has been tremendously 
responsive and we thank them for their support.
    To everyone here in the Middletown community, coming 
together, you have risen to help the families of those who 
perished in the tragic Kleen explosion last February. It is 
your compassion and your strength and you truly rose to the 
occasion and you make us all proud.
    We are here today to examine the causes and the 
circumstances surrounding that awful explosion, which as you 
know, claimed the lives of six men: Ronald Crabb, Peter 
Chepulis, Raymond Dobratz, Kenneth Haskell, Christopher 
Walters, and Roy Rushton, and injured over 50 workers at the 
Kleen Energy plant. It's worth repeating the names over and 
over again, lest we forget who they are, what they did, and 
that their families have to survive.
    But our task today is not simply one of historical inquiry. 
To do right by the men who perished in this accident and their 
colleagues, we must take this incident as an impetus for 
action. We know this natural gas explosion was not the first of 
its kind. In 2003, a Fairfield, California plant ``gas blow'' 
procedure gone wrong caused significant property damage, 
shattering windows a quarter of a mile away. And a 2009 plant 
explosion in Garner, North Carolina resulted in 3 deaths and 71 
injuries. But if we act this time, if we act this time, we can 
help ensure the Middletown explosion is one of the last of its 
kind.
    Particularly with 125 more natural gas power plants 
commissioned to be built over the next five years, it behooves 
us to explore exactly what went wrong here in Middletown and 
take the necessary steps to see it does not happen again. I 
know the Occupational Safety and Health Administration, the 
Chemical Safety Board and the Governor's panel have been 
thoroughly investigating this accident with regulatory action 
in mind, and we look forward to hearing and reviewing their 
recommendations and we are prepared to act as Members of 
Congress.
    The fact is we have much to do in the realm of worker 
safety across the board. An average of 15 workers per day die 
from work-related incidents, and another 8 to 12 million 
workers suffer work-related injuries on an annual basis. No 
doubt there are steps we can take to mitigate these dismal 
numbers. For example, Chairwoman Woolsey has introduced the 
``Protecting America's Workers Act,'' which grants stronger 
enforcement capacity to the Occupational Safety and Health 
Administration, OSHA, and which I and my colleagues are proud 
to co-sponsor.
    We can make sure that regulations exist to protect our 
working men and women in dangerous jobs and prevent future 
tragedies such as this. To take just one example, at the 
moment, natural gas is the only fuel gas not regulated by OSHA, 
even though its consumption exceeds any other gas fuel. To take 
another, the CSB has determined that the ``gas blow'' procedure 
is inherently dangerous and should be discontinued in favor of 
safer alternatives, but as the Governor's Commission also 
pointed out in their findings, there is no law, standard, or 
code on the books to regulate or prohibit this procedure. These 
seem like exactly the sort of lapses in regulatory oversight 
that can and should be rectified.
    No one wants to see any more lives lost. And we all agree 
that we should do everything in our power to protect our 
workers. That is why we are here today, to listen, to glean 
everything we can and to move forward. I thank the panel for 
being here today, and I look forward to hearing their 
testimony. Thank you very much.
    [The statement of Ms. DeLauro follows:]

    Prepared Statement of Hon. Rosa L. DeLauro, a Representative in 
                 Congress From the State of Connecticut

    Thank you and good morning.
    Let me begin thanking today's distinguished panel--Mayor Giuliano, 
Fire Chief Edward Badamo; the Honorable John Bresland, Chair of the 
U.S. Chemical Safety and Hazard Investigation Board, Professor Glenn 
Corbett of the Department of Protection Management at John Jay College 
of Criminal Justice, the Honorable Alan Nevas, Chair of the Governor's 
Panel into the Kleen Energy explosion, and Jodi Thomas, whose husband 
Ron Crabb perished in this terrible explosion.
    Thank you for contributing today, and for your broader efforts in 
the wake of this tragedy. I know local leaders such as Mayor Giuliano 
and Chief Badamo, as well as representatives from Kleen Energy Systems, 
have all been working very hard over the past few months to figure out 
exactly what happened last February. I thank you for your diligence.
    Thanks also to my colleagues Chairman George Miller and Chairwoman 
Lyn Woolsey for agreeing to hold this field hearing of the Workforce 
Protections Subcommittee here in Middletown, and to Congressmen Joe 
Courtney, Chris Murphy, and John Larson for being here today. From Day 
One, the subcommittee has been tremendously responsive and I thank them 
for their support.
    And, of course, thank you to everyone here in the Middletown 
community who have come together and risen to help the families of 
those who perished in the tragic Kleen explosion last February. In your 
compassion and your strength, you have done all of Connecticut proud.
    We are here today to examine the causes and circumstances 
surrounding the awful explosion of February 7, which, as you know, 
claimed the lives of six men--Ronald Crabb, Peter Chepulis, Raymond 
Dobratz, Kenneth Haskell, Christopher Walters, and Roy Rushton--and 
injured over 50 workers at the Kleen Energy plant.
    But our task today is not simply one of historical inquiry. To do 
right by the men who perished in this accident and their colleagues, we 
must take this incident as an impetus for action. We know this natural 
gas explosion was not the first of its kind. In 2003, a Fairfield, 
California plant ``gas blow'' procedure gone-wrong caused significant 
property damage, shattering windows a quarter of a mile away, and a 
2009 plant explosion in Garner, North Carolina resulted in three deaths 
and 71 injuries. But if we act this time, we can help ensure the 
Middletown explosion is one of the last of its kind.
    Particularly with 125 more natural gas power plants commissioned to 
be built over the next five years, it behooves us to explore exactly 
what went wrong here in Middletown and take the necessary steps to see 
it does not happen again. I know the Occupational Safety and Health 
Administration, the Chemical Safety Board and the Governor's panel have 
been thoroughly investigating this accident with regulatory action in 
mind, and I look forward to hearing and reviewing their 
recommendations.
    The fact is we have much to do in the realm of worker safety across 
the board--an average of fifteen workers per day die from work related 
incidents, and another 8 to 12 million workers suffer work-related 
injuries on an annual basis. No doubt there are steps we can take to 
mitigate these dismal numbers. For example, the Chairwoman has 
introduced a ``Protecting America's Workers Act,'' which grants 
stronger enforcement capacity to the Occupational Safety and Health 
Administration, and which I am glad to co-sponsor.
    And we can make sure that regulations exist to protect our working 
men and women in dangerous jobs and prevent future tragedies such as 
this. To take just one example: At the moment, natural gas is the only 
fuel gas not regulated by OSHA, even though its consumption exceeds any 
other gas fuel.
    To take another: The CSB has determined that the ``gas blow'' 
procedure is inherently dangerous and should be discontinued in favor 
of safer alternatives, but, as the Governor's Commission also pointed 
out in their findings, there is no law, standard, or code on the books 
to regulate or prohibit this procedure. These seem like exactly the 
sort of lapses in regulatory oversight that can and should be 
rectified.
    Nobody wants to see any more lives lost. And we all agree that we 
should do everything in our power to protect our workers. That is why 
we are here today, to listen, to glean everything we can and to move 
forward. I thank the panel for being here today, and I look forward to 
hearing their testimony. Thank you.
                                 ______
                                 
    Mr. Courtney. Thank you, Rosa. Now I'd like to recognize 
the Member from the 1st District who also represents a portion 
of Middletowners with us here today, Congressman John Larson.
    Mr. Larson. Thank you very much, Joe, and I thank the 
Committee for putting this very important hearing together. 
Thank you, Joe, for being here to chair and oversee this 
meeting and this testimony that will be critical to legislation 
as we put it forward.
    Connecticut is a very small delegation, but I'm honored to 
be here with four of the five Members of the United States 
Congress as we listen to this testimony here this morning. I'm 
honored to be joined by Joe Courtney, Chris Murphy, and 
certainly by the dean of our delegation and someone as Joe 
rightly pointed out, who has been on top of this issue from the 
moment it happened. I'm honored as well, as she mentioned Joe 
Serra, and Billy Ciotto who works in my office who has been our 
point person here in Middletown. And although we represent a 
small portion of Middletown, let me say that what happened here 
in Middletown touched everyone across the State of Connecticut. 
And I dare say across this country.
    As you listened to what Joe Courtney had to say about what 
is befalling working men and women all across this great nation 
of ours, you understand the need and importance of hearings 
like this. But Mayor Giuliano and Chief Badamo, let me say 
especially to the community of Middletown, with the great 
dignity and empathy and the outpouring of compassion and the 
incredible memorials that soon ensued demonstrated just what 
kind of community Middletown is. And frankly, I think the whole 
community stands taller and prouder because of the kind of 
compassion.
    And to have Jodi here today, your courage, your valor, your 
ability to come here and testify, I'm sure how painful this 
must be in remembering Ron, just how vital this testimony is to 
not only Members of Congress, to people all across this nation.
    You heard Joe and Rosa both outline what we've learned in 
the aftermath, where fundamental problems and gaps in 
regulation that directly led to this disaster. But we look 
forward to your testimony which we believe will reveal that no 
agency was tasked with regulating the gas blow. And that 
procedure has been determined to be the cause of the explosion.
    In addition, as was earlier enumerated by my colleagues, 
there are no specific codes or regulations that would have 
applied to the process of cleaning natural gas piping at the 
Kleen Energy Power Plant. Even more concerning, as Rosa pointed 
out, similar explosions have occurred across the country in 
California, she indicated, in North Carolina as well. Despite 
these repeated occurrences there has not been a clear solution 
established to address these safety gaps once and for all.
    While we await the findings of the OSHA investigation that 
is scheduled to be completed by the end of July, it is clear 
that urgent action needs to be taken. The Chemical Safety Board 
has made recommendations for additional regulatory action by 
OSHA, a change in the National Fuel Gas Code, and further 
legislative action by the State of Connecticut. I look forward 
to working with the Committee, and my colleagues from the 
Connecticut delegation, and the regulatory agencies to make 
sure that this type of disaster never occurs again.
    While we can never undo the tragic events of February, we 
can honor the memory of the fallen by guaranteeing that we have 
the regulations and standards in place to ensure that every 
worker across this country is protected.
    I want to thank as well, Professor Corbett, Judge Nevas, 
John Bresland also for joining us here today, and also 
recognize the fact that the family of Raymond Dobratz is here 
as well. Thank you for your testimony and we appreciate your 
service to your country.
    [The statement of Mr. Larson follows:]

Prepared Statement of Hon. John B. Larson, a Representative in Congress 
                     From the State of Connecticut

    I would first like to thank the Education and Labor Workforce 
Protections Subcommittee for holding this proceeding and my colleagues 
from the Congressional delegation for being in attendance.
    The tragedy that occurred here in Middletown, CT was felt across 
the nation. However, the hardest hit, were those families who lost 
their loved ones on that terrible day in February. I want to especially 
acknowledge the courage of Jodi Thomas for being here today to testify. 
Your act of bravery in being here to not only talk about your wonderful 
husband, Ron, but to discuss ways to prevent this type of accident from 
ever occurring again is truly remarkable and admirable. I also 
understand that the family of Raymond Dobratz is in attendance. I would 
like to express my deepest condolences to you and my appreciation for 
your courage to be here for this important hearing. To all of the 
victims and families who were either killed or injured in the 
explosion, I offer my sincere regrets and sympathy.
    I would also like to thank the other members of the panel from 
Connecticut for being here, including Chief Badamo, Mayor Giuliano, and 
Judge Nevas, as well as John Bresland from the Chemical Safety Board 
and Dr. Glenn Corbett.
    In the aftermath of all that took place we learned that there were 
fundamental problems and gaps in regulation that directly led to this 
disaster. As the testimony from our witnesses will reveal, no agency 
was tasked with regulating the ``gas blow'' procedure that has been 
determined to be the cause of the explosion. In addition, there are no 
specific codes or regulations that would have applied to the process of 
cleaning natural gas piping at the Kleen Energy Power Plant. Even more 
concerning is that similar explosions have occurred across the country 
in the past several years, including in North Carolina in 2009. Despite 
these repeated occurrences there has not been a clear solution 
established to address these safety gaps once and for all.
    While we await the findings of the OSHA investigation that is 
scheduled to be completed by the end of July, it is clear that urgent 
action needs to be taken. The Chemical Safety Board has made 
recommendations for additional regulatory action by OSHA, a change in 
the National Fuel Gas Code, and further legislative action by the State 
of Connecticut. I look forward to working with the subcommittee, my 
colleagues from the Connecticut delegation, and the regulatory agencies 
to make sure that this type of disaster never occurs again.
    While we can never undo the tragic events of February, we can honor 
the memory of the fallen by guaranteeing that we have the regulations 
and standards in place to ensure that every worker is protected. I look 
forward to hearing the testimony and recommendations made here today 
and thank you all once again for attending today's critically important 
hearing.
                                 ______
                                 
    Mr. Courtney. Thank you, John.
    And Chris Murphy from the 5th District who is a Member of 
the Energy and Commerce Committee is also with us this morning. 
Chris?
    Mr. Murphy. Thank you very much, Representative Courtney 
and thank you to Chairman Woolsey, although we're sorry she 
can't be here. We certainly appreciate the opportunity to have 
this Committee come to Connecticut in order to glean on the 
ground facts that we know are necessary for action moving 
forward. My thanks as well to Representative DeLauro and John 
Larson, who both from the minute this happened were on the 
ground, starting the process that we stand here continuing 
today to figure out what went wrong, what we can learn from it 
and how we can change the law to make sure that it doesn't 
happen again. To the Panel, especially to Ms. Thomas for 
joining us here today, I look forward to your testimony.
    Between the events of this past February and the explosion 
at the facility in North Carolina of last summer, it's clear 
that we do not have an adequate safety system in place for 
handling industrial natural gas lines. The Chemical Safety 
Board's report provides exhaustive evidence to the fact that 
despite clear and documented safety risks, gas blows remain the 
most prevalent method to purge gas lines.
    Beyond the decision to use gas itself in the blow down, 
it's also clear that successive purges that took place at the 
Middletown site on February used an excessive level of gas and 
did not adequately vent it once released. In examining these 
facts, one of the many questions before us becomes clear. Is 
natural gas an appropriate substance to employ when it comes to 
clearing debris from piping systems? And beyond the individual 
codes and the regulations in need of revision, something that 
we will talk much about today and the days following, it's 
important that we ensure that the overall safety of natural gas 
power plants going forward meets the highest of standards.
    Gas power plants are nothing new here in the Northeast 
where they shoulder the majority of our generation needs along 
with nuclear power. However, as we work to enact national 
energy policies to lower greenhouse gas emissions, natural gas 
plants will likely begin to emerge in significantly greater 
numbers than they are even today throughout the country. 
Furthermore, newly discovered recoverable domestic gas reserves 
will also make long-term investment in gas resources more 
attractive, and further drive the expansion of gas generation 
facilities. Gas will remain a vital part of our energy mix, and 
we owe it to ourselves, to the country, and to those that are 
working in the construction field related to gas development, 
to ensure the gas plants meet the highest safety standards.
    Accidents like those here in Middletown should mark the 
beginning of a renewed commitment to safety rather than just an 
initial indicator of a deeply troubling trend.
    I think I can speak for all of us here today when I say 
that our thoughts and prayers are with you, Ms. Thomas, with 
the families of those killed, including Peter Chepulis, a 
constituent of the 5th Congressional District.
    As Congressman Courtney noted, there is overlapping 
jurisdiction on the path forward. I serve as a Member of the 
Energy and Commerce Committee which has jurisdiction, in part, 
over the Chemical Safety Board and I look forward to the 
testimony today. I look forward to the joint collaborative work 
that the Energy and Commerce Committee and the Education and 
Labor Committee are going to put forward to take the lessons 
learned from this tragedy to make sure that we push forward a 
new way to regulate industrial gas lines. I thank 
Representative Courtney of the Committee and our Panel for 
being here today.
    [The statement of Mr. Murphy follows:]

 Prepared Statement of Hon. Christopher S. Murphy, a Representative in 
                 Congress From the State of Connecticut

    I'd like to thank Chairwoman Woolsey and Ranking Member Rodgers for 
bringing this Committee here to Middletown to investigate this tragic 
accident. I also appreciate the willingness on behalf of our panel here 
today to work with us to further this effort. We have a great deal of 
work to do before we can ensure that incidents like these never befall 
another community.
    Between the events of this past February and the explosion at the 
ConAgra SlimJim facility in North Carolina of last summer, it's clear 
that we must have an adequate safety system in place for handling 
industrial natural gas lines. The Chemical Safety Board's report 
provides exhaustive evidence to the fact that, despite clear and 
documented safety risks, gas blows remain the most prevalent method to 
purge gas lines.
    Beyond the decision to use gas itself in the blowdown, it's also 
clear that the successive purges that took place at the Middletown site 
on February 7 used an excessive level of gas and did not adequately 
vent it once released. In examining these facts, one of the many 
questions before us becomes clear--is natural gas an appropriate 
substance to employ when it comes to clearing debris from piping 
systems?
    Beyond the individual codes and regulations in need of revision, 
it's important that we ensure the overall safety of natural-gas power 
plants going forward. Gas-fired plants are nothing new here in the 
Northeast, where they shoulder the majority of our generation needs, 
along with nuclear power.
    However, as we work to enact national energy policies to lower 
greenhouse gas emissions, natural gas plants will likely begin to 
emerge in significantly greater numbers throughout the country. 
Furthermore, our newly-discovered recoverable domestic gas reserves 
will also make long-term investment in gas resources more attractive, 
and further fuel expansion of gas generation facilities. Gas will 
remain a vital part of our energy mix for years to come, and we owe it 
to ourselves and our communities to ensure that gas plants meet the 
highest safety standards. Accidents like those here in Middletown 
should mark the beginning of a renewed commitment to safety, rather 
than an initial indicator of a deeply troubling trend.
    I think I can speak for all of us here today when I say that our 
thoughts and prayers remain with Ms. Thomas and the families of those 
killed in the Kleen Energy disaster. Their lives will never again be 
made whole, and we owe them our diligence and hard work in today's 
proceedings. I appreciate the opportunity to appear with the 
subcommittee today, and look forward to the witnesses' testimony.
                                 ______
                                 
    Mr. Courtney. Great. Thank you, Chris. Again, just for the 
record, today I'm joined on the dais here with staff from the 
Education and Labor Committee, both minority staff and majority 
staff. There's a full record and transcript that's being made 
of the proceedings and any exhibits that are being submitted or 
written testimony, of course, will be made part of the record. 
And again, we're taking this back to Washington again for 
Congresswoman Woolsey's Committee to deliberate on.
    Now I'd like to introduce our distinguished panel of 
witnesses with us here today. Our first witness will be John 
Bresland who is the Board Member of the U.S. Chemical Safety 
Board and until yesterday was its Chairman and CEO. He has 
served as chair since 2008 and has been on the Board since 
2002. Mr. Bresland graduated in chemistry from Londonderry 
Technical College, Northern Ireland, and from Suffolk 
University in England. He is a Member of the American Institute 
of Chemical Engineers, the American Chemical Society, and a 
Fellow of the Royal Society of Chemistry.
    Ms. Jodi Thomas who will be testifying second, serves as a 
full-time Probate Judge for Colchester and Lebanon. Prior to 
becoming a Judge, she worked as an attorney, a law clerk to the 
Superior Court Judges for the State Judicial Branch, in a task 
force clerked for the General Assembly's Energy and Technology 
Committee. She received her undergraduate degree from Sacred 
Heart University and a law degree from Quinnipiac University 
School of Law.
    She will be followed by Mayor Sebastian Giuliano, the Mayor 
of Middletown, Connecticut, a position he has held since 2005. 
Prior to becoming Mayor, he worked as an attorney at Giuliano 
and Scalora, a law firm from 2001 to '05. He received his J.D. 
from Catholic University and his B.A. from Boston College.
    Mr. Edward Badamo is the Fire Chief of the South Fire 
District and has served in this role since March 2008. He was 
the Incident Commander for the Kleen Energy Incident and 
oversaw response and recovery operations for 28 days at the 
Kleen Energy site. Prior to becoming the Fire Chief, he was the 
Deputy Chief of Operations and a Training Officer for the South 
Fire District, dating back to January 2005. He holds a 
Bachelor's degree in Public Safety Administration from Charter 
Oak College, several fire and rescue certifications, and 
certificates, and is a licensed paramedic.
    The Honorable Alan Nevas, a distinguished witness here 
today, was the Chair of the Kleen Energy Systems and Explosion 
Origin and Cause Panel. He was appointed to this position by 
Connecticut's Governor, Jodi Rell. Judge Nevas served with 
distinction on the U.S. District Court for the District of 
Connecticut for over 20 years. He served in the State 
Legislature and has a distinguished career in the Connecticut 
bar. He serves now as an arbitrator and mediator at Levitt 
Rockwood, PC. He graduated with a B.A. from Syracuse University 
and received his law degree from NYU.
    Mr. Glenn Corbett is an Associate Professor and Chair of 
the Department of Protection Management at John Jay College of 
Criminal Justice. He currently serves on the Fire Code Advisory 
Council for New Jersey and is a former member of the Federal 
Advisory Committee of the National Construction Safety Team. 
Professor Corbett is the technical editor and columnist for 
Fire Engineering Magazine. He received his master's in 
Engineering from Wooster Polytech and a B.A. from John Jay 
College of Criminal Justice.
    Just welcome to all of the witnesses and just again by way 
of explanation, those little panel--those light panels, if 
you've never testified at one of these hearings, let me explain 
the lighting system and the five-minute rule. Everyone, 
including Members, is limited to five minutes of presentation 
or questioning. The green light is illuminated when you begin 
to speak. When you see the yellow light, it means you have one 
minute remaining, and when you see the red light it means your 
time has expired and you need to conclude your testimony. I'll 
be pretty generous in terms of that point, but in any case, 
that's what the system is and then there will be questions 
following. We'll go right down the line in terms of the 
testimony here.
    And Mr. Bresland, welcome to the Committee.

         STATEMENT OF HON. JOHN BRESLAND, BOARD MEMBER,
      U.S. CHEMICAL SAFETY AND HAZARD INVESTIGATION BOARD

    Mr. Bresland. Good morning Congressman Courtney, 
Congresswoman DeLauro, Congressman Larson, and Congressman 
Murphy. I am John Bresland, board member of the U.S. Chemical 
Safety Board.
    My statement today is on my own behalf and does not 
necessarily reflect the views of the other four board members. 
Last week I stepped down as a board chair to make way for 
President Obama's new appointment, Dr. Rafael Moure-Eraso, who 
is sitting behind me today. All of us welcome Dr. Moure and we 
look forward to his leadership over the next five years.
    The Chemical Safety Board, or CSB, is an independent, non-
regulatory federal agency that investigates major industrial 
accidents involving hazardous materials. Most recently we've 
been called in to investigate the causes of the explosion and 
fire of the BP Deepwater Horizon oil rig in the Gulf of Mexico.
    For the past four and a half months, the CSB has conducted 
an intensive investigation of the root causes of the accident 
at the Kleen Energy Power Plant here in Middletown. This 
accident occurred during the procedure called a gas blow used 
to clean natural gas piping. During this procedure, a huge 
volume of high-pressured natural gas was vented directly to the 
atmosphere. I must say as an aside, someone who has worked in 
industry for many years, I wasn't aware that there was such a 
procedure and I was quite shocked to realize there actually is 
a procedure like this.
    The CSB team has interviewed more than 90 witnesses, 
gathered large numbers of documents, and painstakingly examined 
the site and key pieces of evidence. We have also exhaustively 
reviewed applicable federal and state regulations, and other 
codes and standards. The CSB has uncovered what we believe is a 
significant gap in these standards, a gap that threatens the 
continued safety of workers at facilities that handle flammable 
natural gas.
    The tragedy that took six lives and injured many others at 
Kleen Energy was not the first explosion involving natural gas 
that the CSB has investigated. On June 9, 2009, a destructive 
gas-purging accident occurred at the ConAgra Slim Jim meat 
processing facility in Garner, North Carolina. These deadly 
accidents in Connecticut and North Carolina were preventable. 
Gas company records show that some two million standard cubic 
feet of natural gas were released to the atmosphere during the 
gas blows of Kleen Energy on the morning of February 7th. That, 
by the way, is enough to fuel a typical American home every day 
for 25 years.
    You can get an idea of just how much flammable gas is 
released in the gas blow from the photograph on the easel taken 
a week before the explosion at Kleen Energy. I'm looking at the 
photograph on my right here. You can just see how much gas and 
debris was being ejected into the atmosphere.
    On the morning of the accident, no safety meeting was held 
among the workers involved in the gas blows and many personnel 
who were not essential to the gas blows remained on site. At 
approximately 11:15 a.m., the gas found one of the numerous 
available ignition sources and exploded. Through extensive 
research, our team discovered that since 2001, at least two 
other fires and explosions have occurred at gas power plants 
during gas blows. One of these explosions at a Calpine power 
plant in 2003 is pictured on the easel, the one with the flame.
    But alternatives to using natural gas are readily 
available. They include blowing with air, nitrogen, or steam, 
or using a cleaning device called a pig, which can be pushed 
through the piping using air. Many companies already use these 
alternative techniques, yet we find that natural gas blows 
remain the most popular single pipe cleaning method and they're 
still going on despite our previous announcement about the 
hazards.
    In our review of federal standards, safety codes, and 
industry guidance, we find nothing that specifically prohibits 
natural gas blows or mandates the use of available, inherently 
safer techniques. Indeed, we found a series of exemptions 
governing the natural gas in our industry.
    The CSB has a solution. At our CSB public meeting tonight 
in Portland, I intend to vote for and support new urgent safety 
recommendations that we have developed, calling for OSHA to 
enact new regulations to control this hazard and I will 
encourage the other board members to do the same.
    The new regulations would prohibit the use of natural gas 
for pipe cleaning and they would require the participation of 
workers and contractors in developing safe gas handling 
procedures. We consider these recommendations urgent, in part 
because some 125 new gas-fired power plants are planned for 
completion in the next five years including a number here in 
Connecticut and I believe that number we will hear tonight is 
between six and eight here in Connecticut.
    If the Board approves the recommendations this evening, we 
plan to conclude the CSB investigation of the explosions at 
Kleen Energy and ConAgra in the strong belief that we've 
identified the principal root causes of these disasters. We 
will focus our future energies on advocating the swiftest 
possible adoption of our recommendation by OSHA, the National 
Fire Protection Association, and other recipients.
    I thank you again for convening today's hearing and I thank 
you and the entire Connecticut congressional delegations for 
your unwavering support of CSB's investigation and our work to 
improve industrial safety and I will be happy to answer any 
questions that you may have.
    [The statement of John Bresland follows:]

Prepared Statement of Hon. John S. Bresland, U.S. Chemical Safety Board

    Good morning Chairman Woolsey and distinguished members of 
Congress. I am John Bresland, board member of the U.S. Chemical Safety 
Board. Thank you for convening this important field hearing of the 
House Education and Labor Committee and for inviting me to appear 
before you.
    My statement today is on my own behalf and does not necessarily 
reflect the views of the other board members. This week we are 
welcoming two new members to the Chemical Safety Board: Dr. Rafael 
Moure-Eraso, who will serve as the new chair, and Mr. Mark Griffon. Dr. 
Moure and Mr. Griffon were confirmed by the Senate just last Wednesday 
evening.
    The Chemical Safety Board or CSB is an independent, non-regulatory 
federal agency that investigates major industrial accidents involving 
hazardous substances. We were established in 1998 and have investigated 
approximately 70 industrial fires, explosions and toxic gas releases 
across the country. These include the West Pharmaceutical explosion of 
2003, the BP Texas City refinery explosion of 2005, and the Imperial 
Sugar explosion of 2008. Most recently, we have been called in to 
investigate the causes of the explosion and fire at the Deepwater 
Horizon oil rig in the Gulf of Mexico.
    For the past four-and-a-half months, the CSB has conducted an 
intensive investigation of the root causes of the February 7, 2010, 
accident at the Kleen Energy power plant under construction here in 
Middletown. That investigation began less than 24 hours after the 
explosion and has involved a large number of our personnel.
    I myself observed portions of the site on the Tuesday immediately 
following the explosion (Figure 1). It was a scene of devastation and 
of tragedy. For us, it was one of the most challenging investigations 
we have ever conducted.
    Our team has interviewed more than 90 witnesses, has gathered large 
numbers of documents from all the parties involved, and has 
painstakingly examined the site and key pieces of evidence. We have 
also conducted an exhaustive review of applicable federal and state 
regulations, codes, and standards governing the gas power industry and 
the work activities underway on the morning of the explosion.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

CSB Investigation of Kleen Energy Explosion Reveals Significant Gap in 
        Current Standards
    Madam Chairman, the CSB team has uncovered what we believe is a 
significant gap in these standards--a gap that threatens the continued 
safety of workers at facilities that handle flammable natural gas.
    CSB investigators have determined that no specific federal 
workplace safety standards prohibit intentional, planned releases of 
natural gas into workplaces, as occurred here on February 7. We also 
determined that there are safe, feasible, economical alternatives to 
the unsafe gas-handling practices that caused this accident.
    The tragedy that took six lives and injured at least 50 others at 
Kleen Energy was not the first explosion involving natural gas that the 
CSB has investigated. On June 9, 2009, a similarly destructive accident 
occurred at the ConAgra Slim Jim meat processing plant in Garner, North 
Carolina (Figure 2). That explosion during what is known as ``gas 
purging'' of a process pipe killed four workers and injured 67 others. 
It substantially destroyed the facility, leading to a permanent 
shutdown that cost more than 600 jobs in the region.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A mere three days before the accident at Kleen Energy, on February 
4, the CSB held a public meeting in North Carolina to present our 
preliminary findings on the ConAgra explosion and to issue urgent 
safety recommendations for changes to the National Fuel Gas Code to 
prevent the unsafe indoor venting of gas during purging operations.
    At the hearing, accident victims spoke to the Board--none more 
poignantly than Debra Pettiway, who worked for ConAgra and whose only 
son, 33-year-old Lewis Watson, also worked at the Slim Jim plant and 
was killed in the explosion, leaving behind a wife and child. Ms. 
Pettiway implored the Board, ``For the people that did die, please 
don't let them die for nothing.'' Ms. Pettiway's plea has, I believe, 
inspired our continuing work to promote the safer handling of fuel 
gases--the work that we plan to complete here today in Middletown.
    Madam Chairman, I am here to testify that these deadly accidents in 
Connecticut and North Carolina were preventable. There are readily 
available alternative practices that will completely eliminate the 
hazard. It is my earnest hope that standards will be put in place that 
will require these safer practices in the future.
Natural Gas Blow Released Huge Volume of Flammable Gas at Kleen
    The explosion at Kleen Energy occurred during what has been termed 
a ``natural gas blow.'' This was a procedure to clean out debris from 
large, newly constructed natural gas piping that provided fuel to the 
plant's large electricity-generating gas turbines.
    The cleaning of natural gas piping is a necessary activity when 
putting new piping into service at gas power plants, because even small 
debris particles can cause damage to the turbines, which are very large 
and costly. The turbine manufacturers--including companies like Siemens 
and General Electric--require cleaning of the piping as a condition of 
the warranty on the turbines.
    Although contractors involved in constructing the Kleen Energy 
plant had considered using high-pressure air to clean out the piping, 
it was eventually decided to use high-pressure natural gas for this 
purpose. Using natural gas, we determined, has generally been done as a 
matter of custom and convenience at new power generation facilities, 
since an abundant supply of high-pressure natural gas is readily 
available from nearby gas pipelines that are already connected into 
these plants.
    Gas blows of this kind can result in vast releases of natural gas 
to the atmosphere. Figure 3 shows a gas blow conducted at Kleen Energy 
about a week prior to the accident; a geyser-like plume of gas and 
debris towers over the large plant.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Over a four-hour period on the morning of February 7, workers were 
conducting a series of 15 planned gas blows involving different 
sections of piping within the plant. The gas was supplied at a high 
pressure of approximately 650 pounds per square inch gauge (psig).
    This gas was vented directly to the atmosphere, without being 
captured or combusted. The venting occurred through large, horizontal, 
open pipe ends that were less than 20 feet off the ground and were 
located in congested areas adjacent to the power generation building.
    Our investigators obtained gas company records that show that some 
two million standard cubic feet of natural gas were released to the 
atmosphere during these gas blows on February 7. To put that into some 
perspective, that is more than two billion BTUs worth of gas--enough to 
fuel a typical American home every day for more than 25 years.
    During the final ten minutes prior to the blast, approximately 
400,000 cubic feet of gas were released. That is enough gas to fill a 
pro basketball arena with an explosive fuel-air mixture.
Workers Were Not Adequately Involved in Safety Planning
    No safety meeting was held that morning among the workers involved 
in the gas blows. About 150 workers were present at the site. Although 
workers were evacuated from the area south of the power generation 
building, there was no effort to evacuate nonessential personnel from 
the building itself; however, a few workers evacuated themselves due to 
concern about the odor from the gas that was being released.
    While efforts were made to eliminate or control ignition sources 
outside the building, some ignition sources were difficult or 
impossible to eliminate. In addition there were abundant ignition 
sources that remained inside, including electrical devices and welding 
equipment. We view that the formation of a flammable gas cloud was the 
fundamental hazard, and thus determining a specific ignition source has 
not been a major focus of our investigation.
    At approximately 11:15 a.m. the gas found one of the numerous 
available ignition sources and exploded.
Two Previous Fires or Explosions Occurred During Natural Gas Blows at 
        Power Plants
    CSB investigators discovered that this was not the only explosion 
that has occurred during a natural gas blow at a power plant. In 
October 2001, a fire occurred during a natural gas blow at a First 
Energy power plant in Ohio. Flames reportedly shot 30-40 feet in the 
air following a sudden, unexpected ignition of the gas. In that case, 
operators were able to shut off the supply of gas within a period of 
seconds, before injuries or serious damage occurred.
    The next occurrence was even more serious. On January 26, 2003, a 
similar explosion occurred at the Calpine Wolfskill Energy Center in 
Fairfield, California. This blast, which was actually photographed as 
it began (Figure 4), also happened during a gas blow to clean piping, 
using high-pressure (630 psig) natural gas.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The explosion was powerful enough to be heard 10 miles away. 
However, workers were 80 to 140 feet away from the location of the vent 
and were spared injury. Investigators from Calpine noted that one of 
the causes of the accident was that available alternative cleaning 
methods such as compressed air were not being used.
    Perhaps because these previous accidents did not cause severe 
injuries or damage, they were not widely publicized or acted upon by 
the gas power industry, which has continued to use natural gas for pipe 
cleaning.
Natural Gas Blows Remain Common, Despite Safer Alternatives
    Following the explosion at Kleen Energy, we enlisted the help of an 
industry organization called the Combined Cycle Users' Group to conduct 
a survey of gas power companies concerning their pipe cleaning 
practices. The survey confirmed that there are a number of alternatives 
to using natural gas blows for cleaning debris from pipes.
    These alternatives include blowing with air, nitrogen, or steam, or 
using a cleaning device known as a ``pig'' which can be pushed through 
the piping. Although no method is completely free of any risks, using 
compressed air, for example, completely eliminates the catastrophic 
fire and explosion hazard associated with using natural gas. Other 
methods, such as using a cleaning pig with compressed air as the motive 
force, also eliminate the fire hazard.
    These methods are practical and affordable and work as well if not 
better than natural gas. Many companies use these alternative 
techniques. Despite the availability of these alternative methods, we 
were disturbed to find that natural gas blows remain the most popular 
single technique, practiced by 37% of respondents in our survey. We 
even learned of several natural gas blows that were performed after the 
CSB's announcement at a news conference on February 25th that these 
operations were inherently unsafe and should be avoided.
    General industry safety guidelines dating back for several decades 
emphasize the importance of eliminating process hazards to the greatest 
degree possible, rather than trying to control the hazards of 
inherently dangerous activities. This approach, often termed ``inherent 
safety,'' recognizes that despite the best of intentions, efforts at 
controlling serious hazards are ultimately prone to failure over time. 
In the safety hierarchy, permanent elimination of a hazard is always 
preferable whenever it is possible to do so.
    While not every natural gas blow leads to an explosion or to 
injuries, the activity is inherently dangerous and difficult to conduct 
in a way that reliably results in safe dispersion of the gas before it 
contacts an ignition source. In fact, there are even indications that 
natural gas blows can self-ignite due to static electricity or impact 
sparks from metal debris.
    Madam Chairman, the hazard of natural gas releases into workplaces 
is one that can and should be eliminated.
Current Regulations and Guidance Allow Natural Gas Blows
    CSB investigators examined numerous standards, codes, and guidance 
from the U.S. Occupational Safety and Health Administration (OSHA), the 
National Fire Protection Association (NFPA), the American Society of 
Mechanical Engineers (ASME), the Electric Power Research Institute 
(EPRI), and the State of Connecticut. Yet we found nothing that 
specifically prohibits natural gas blows or mandates the use of 
feasible alternatives.
    What we did find in our investigation was a series of exemptions 
governing the natural gas power industry. For example, we found that 
the National Fuel Gas Code (NFPA 54), which has been adopted by at 
least 35 states across the U.S., has a specific exemption for power 
plants and for piping above a pressure of 125 psig. We found that other 
NFPA documents that provide guidance for power plants, including NFPA 
37 and NFPA 850, are silent on the issue of gas blows.
    In addition we were told that industry representatives have 
resisted the development of NFPA or other consensus codes that would 
contain potential mandatory safety requirements for the power industry. 
NFPA 850, a document focused on fire protection in the electric power 
industry, has thus been designated a ``recommended practice'' rather 
than a code and it remains completely voluntary in all jurisdictions.
Urgent Safety Improvements Are Warranted
    Madam Chairman, I would submit to you that the present patchwork of 
inadequate codes and voluntary practices does not protect America's 
workers from the kind of explosions that killed six at Kleen Energy, 
killed four at ConAgra, and threatened many others with death or 
injury.
    That's why today, at our CSB public meeting later this evening, I 
intend to vote for and support new urgent safety recommendations 
calling for OSHA to enact new regulations to control this hazard, and I 
will encourage the other Board members to do the same.
    The two accidents at Kleen Energy and ConAgra--and many others over 
the years--underscore the fact that OSHA currently has no regulatory 
standard for the safe handling of natural gas. In contrast, OSHA has 
specific regulatory standards for other flammable gases, including the 
liquefied petroleum gases propane and butane as well as acetylene and 
hydrogen.
    Data gathered by our investigators demonstrate, however, that 
natural gas is far more widely used than the other common flammable 
gases. For example, natural gas use exceeds that of propane by a factor 
of 15 (Figure 5). Propane use is specifically regulated by OSHA; 
natural gas is not.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    I will not seek to catalogue here all the accidents that have 
resulted from unsafe natural gas releases in industrial workplaces--
they are both serious and numerous. Our draft urgent recommendations 
mention some of the most severe examples, including the catastrophic 
coal dust explosion that was ignited by an inadvertent gas release 
during the purging of a natural gas line at the Ford River Rouge power 
plant in Dearborn, Michigan, in 1999. That single accident killed six 
workers, injured dozens of others, and caused an estimated one billion 
dollars in property losses.
    Other jurisdictions have gone further than federal OSHA. In 
California, state construction regulations prohibit work in an 
atmosphere where flammable gas exceeds 20% of the lower explosive limit 
(LEL). Similar regulations prohibit any work activity in an atmosphere 
above 20% of the LEL in a majority of Canadian provinces.
OSHA Should Develop Safety Standards for Natural Gas
    The draft urgent recommendations that the CSB will consider tonight 
would call upon OSHA to enact new gas safety regulations that will:
    <bullet> Prohibit the use of natural gas for pipe cleaning, the 
cause of the explosion at Kleen Energy
    <bullet> Prohibit the venting or purging of fuel gas indoors, the 
cause of the explosion at ConAgra
    <bullet> Prohibit any work activity where the flammable gas 
concentration exceeds a fixed, low percentage of the lower explosive 
limit
    <bullet> Require that companies involve their workers and 
contractors in developing safe procedures and training for handling 
fuel gas
    I believe OSHA should proceed with developing these regulations as 
quickly as possible, as a matter of considerable urgency. In the 
electrical generating sector alone, there are some 125 new gas-fired 
power plants planned for completion between 2010 and 2015 (Figure 6). 
These plants not only represent a major financial investment, but 
unless steps are taken to prevent unsafe gas blows, many workers may be 
placed in harm's way over the next five years.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Additional draft urgent recommendations will seek safety 
improvements from the NFPA, the American Society of Mechanical 
Engineers, the Electric Power Research Institute, the major gas turbine 
manufacturers, and the State of Connecticut and other states.
    All these recommendations remain ``draft'' until they are voted on 
and approved by the full Board. I ask consent to have the 12 draft 
recommendations--together with more than 60 findings of fact that 
support the recommendations, included in the record of this morning's 
hearing.
    If the Board approves the recommendations this evening, our 
intention is to conclude the CSB investigations of the explosions at 
Kleen Energy and ConAgra. We believe that the 12 urgent recommendations 
proposed today--together with the two urgent recommendations we issued 
on February 4--address all of the principal root causes of these two 
tragic accidents. If adopted by the recipients, I have no doubt that 
future accidents will be avoided and lives will be saved as a result.
    We need to put an end to the unsafe and potentially deadly practice 
of venting huge volumes of natural gas in the vicinity of workers and 
ignition sources. The CSB's draft recommendations represent a 
comprehensive, multi-layered strategy for doing just that.
    Let me add, Madam Chairman, that we had an encouraging meeting just 
over a week ago with the OSHA Assistant Secretary, Dr. David Michaels, 
and his deputies to discuss the proposed recommendations. I know that 
Dr. Michaels and the other dedicated leaders and staff of OSHA are just 
as concerned about these recent fuel gas accidents as we are.
    I hope that as you proceed with your work on this issue, you will 
consider providing OSHA with whatever specific fiscal resources, 
personnel, or statutory tools it may need to proceed quickly with the 
new recommended standards.
    I thank you again, Madam Chair, for convening today's hearing and I 
thank you and the entire Connecticut Congressional delegation for your 
unwavering support of the CSB's investigation and our work to improve 
worker safety. I will be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Courtney. Thank you, Mr. Bresland.
    Ms. Thomas?

 STATEMENT OF JODI M. THOMAS, WIFE OF RON CRABB, A PIPEFITTER 
             WHO DIED IN THE KLEEN ENERGY EXPLOSION

    Ms. Thomas. Good morning. My name is Jodi Thomas. I'm a 
little under the weather. My voice is breaking up. I apologize. 
My husband, Ron Crabb, was killed in the Kleen Energy explosion 
on February 7, 2010. He was 42 years old. I thank you for the 
invitation to speak and tell you about this wonderful man.
    Ron was a man who lived and loved life every day. He loved 
his family with his whole heart. He inspired a loyalty in 
friends that I have seldom seen in my lifetime. He brought joy 
and laughter to so many people, even strangers. He was a very 
special person, the kind you only meet once or twice in a 
lifetime, if you are lucky. When he saw that something needed 
change, he tried to help fix it. When he saw that someone 
needed a hand, he gave it. He gave of himself freely and with 
joy.
    He also gave his time to the community, the union and the 
people of the State of Connecticut in numerous elected and 
appointed positions. For this, he was honored with the 
Connecticut Secretary of State's Public Service Award in 2003.
    Ron was very proud of his trade and he believed strongly in 
the principles of unionism. He was a talented, skilled 
tradesman who worked hard and conducted himself ethically and 
with integrity. He believed that everyone should have a voice 
and believed in focusing on unity and common ground.
    Job-site and worker safety were also very important to Ron 
and I can recall several specific examples of Ron reporting 
violations or sending his men home until a safety issue, like 
exposure to asbestos, was fixed.
    Ron had been working 40 hours per week at the Kleen Energy 
plant since September of 2009, when he was hired by IST, 
Instrument Sciences and Technologies, to perform the 
instrumentation and control work at the plant. In late January 
2010, IST asked Ron to be the General Foreman for 
instrumentation and he was given authority to hire a crew. He 
then began working seven 12-hour days and had been doing so for 
only about a week or two before the explosion.
    Ron and I talked about his job at Kleen Energy at least a 
little bit every night. I know that he felt challenged by the 
work and wanted to do a good job, not just because of his work 
ethic, but also to help his trade possibly secure more work in 
this specialty area. Ron had, in fact, been offered another job 
twice during the time he worked at Kleen Energy, but turned it 
down. Instead, he decided to stay and honor his commitment to 
see instrumentation through.
    I hope to be able to give a sense of how this devastating 
tragedy has affected our lives. Ron left behind two sons: my 
stepson, Tyler, age 18, and our six-year-old little boy, Dylan. 
Ron adored his sons. By everyone's account, he was an 
extraordinary father. Every day when we heard Ron's footsteps 
come up the porch, Dylan would jump up and scream ``Daddy's 
home!'' The dog would jump up and run to the door and a smile 
would come across my face. Our home lit up with joy when Ron 
came home from work each day.
    Dylan is too young to grasp the full magnitude of this 
devastating loss and how it will impact him in the future. But, 
what he does know is that his daddy went to work one day and 
never came home. He also knows that daddy died in an explosion. 
Because of this, the security of his world has been shattered. 
He worries about something bad happening to me when he is not 
with me. The most heartbreaking thing, though, is that this 
beautiful little boy will be deprived of his father's love, 
guidance and companionship for the rest of his life.
    As for me, this loss, and my grief, are so big that I can 
hardly find the words to express them. I can best describe it 
as profound heartache. Ron, to me, was an angel here on earth. 
I thanked God every night for nineteen years for bringing Ron 
to me. And I was so proud of him, who he was as a man, a 
husband, a father, a tradesman, a public servant, loyal, 
ethical, loving, intelligent, funny, strong. But most of all, I 
just loved him with all my heart. Nineteen years may seem like 
a long time, but it was not enough.
    The manner and cause of Ron's death have only compounded 
our family's grief. This tragedy should never, ever have 
happened. It was preventable. This is why I urge you, please, 
do not allow Ron's death to be in vain. Real change, real 
protection for hardworking Americans, must come out of this. It 
is the only way to truly honor him and the other men who lost 
their lives, whose families are forever broken. Together with 
the other tragedies that occurred this year, and the world of 
heartache and loss that have resulted, the lessons here could 
not be any more apparent or urgent. Failing to make good come 
from this would be the biggest tragedy of all.
    My family and I support, wholeheartedly, the enactment of 
H.R. 2067, the Protecting America's Worker Act. We are grateful 
to the many co-sponsors of this bill, including Representative 
Courtney and all of the Connecticut Congressional delegation. 
Responsible parties must be held accountable, including civilly 
and criminally, where appropriate. OSHA and other relevant 
agencies must be given the tools and means to make that happen. 
We also believe that safety whistleblowers should be afforded 
greater protections and that victims' families should be 
allowed greater access in investigations. We very strongly 
support passing legislation making it illegal to offer or give 
financial incentives or bonuses for early completion of certain 
projects like power plants. Finally, we absolutely believe that 
new power plants should not be exempt from regulation.
    Thank you so very much for this opportunity to speak and 
for your work on these critical and urgent issues.
    [The statement of Jodi Thomas follows:]

        Prepared Statement of Jodi M. Thomas, Wife of Ron Crabb

    My name is Jodi Thomas and my husband, Ron Crabb, was killed in the 
Kleen Energy explosion on February 7, 2010. He was 42 years old. I 
thank you for the invitation to speak and tell you about this wonderful 
man.
    Ron was a man who lived and loved life every day. He loved his 
family with his whole heart. He inspired a loyalty in friends that I 
have seldom seen in my lifetime. He brought joy and laughter to so many 
people, even strangers. I have boxes full of cards and letters from 
people telling us how Ron touched their lives and what a good man he 
was. Everyone just loved him, from the time he was a little boy. He was 
a very special person--the kind you only meet once or twice in a 
lifetime, if you are lucky. When he saw that something needed change, 
he tried to help fix it. When he saw that someone needed a hand, he 
gave it. He gave of himself freely and with joy.
    He also gave his time to the community, the union and the people of 
the State of Connecticut. He had just completed a six-year term on the 
Town of Colchester Board of Finance and served on the Colchester 
Democratic Town Committee. He was the immediate Past-President of the 
Connecticut Plumbers & Pipefitters Union, Local 777. Prior to that 
post, Ron served as Recording Secretary for the Local and as a member 
of its Executive Board. Ron also served for six years on the 
Connecticut Department of Consumer Protection's Licensing Board for 
Heating, Piping, Cooling and Sheet Metal Work, having been appointed 
and re-appointed by two consecutive Governors. He was honored with the 
Connecticut Secretary of State's Public Service Award in 2003.
    Ron was very proud of his trade and believed strongly in the 
principles of unionism. He was a talented, skilled tradesman who worked 
hard and conducted himself ethically and with integrity. He believed 
that everyone should have a voice and believed in focusing on unity and 
common ground. I have personally heard countless stories of Ron 
diffusing tension on various jobs or working parties through 
jurisdictional and other disagreements. Jobsite and worker safety were 
also very important to Ron and I recall several specific examples of 
Ron reporting violations and/or sending his men home until a safety 
issue, such as exposure to asbestos, was fixed.
    Ron had been working 40 hours per week at the Kleen Energy plant 
since September 2009, when he was hired by IST to perform the 
instrumentation and control work at the plant. This is a specific area 
within the trade for which Ron had obtained specialty certification. He 
had done instrumentation and control work at many power plants over the 
years, when those jobs were available and in between regular 
pipefitting jobs. About 4 or 5 months after starting at Kleen Energy, 
in late January 2010, IST asked Ron to be the General Foreman for 
instrumentation and he was given authority to hire a crew. He then 
began working seven 12-hour days and had been doing so for only about a 
week or two before the explosion.
    Ron and I talked about his job at Kleen Energy at least a little 
bit every night. I know that he felt challenged by the work and wanted 
to do a good job, not just because of his work ethic, but also to help 
his trade possibly secure more work in this specialty. Ron had, in 
fact, been offered another job twice during the time he was at the 
Kleen Energy plant, but turned it down. Instead, he decided to stay and 
honor his commitment to see the instrumentation through.
    I hope to be able to give a sense of how has this devastating 
tragedy has affected our lives. Ron left behind two sons: my step-son, 
Tyler, age 18, and our our six-year-old little boy, Dylan. Ron adored 
his sons. By everyone's account, he was an extraordinary father. Every 
one of my son's friends (and their parents) thought he was the greatest 
dad in the world--and he was. He took Dylan (and often his friends) 
everywhere--enjoying all that nature can offer and especially fishing, 
hiking and sports. And no matter how hard Ron had worked on a given 
day, he always had time to wrestle and play with Dylan. Every day when 
we heard Ron's footsteps come up the porch, Dylan would jump up and 
scream ``Daddy's home!'' The dog would jump up and run to the door and 
a smile would come across my face. Our home lit up with joy when Ron 
came home from work each day.
    Dylan is too young to grasp the full magnitude of this devastating 
loss and how it will impact him in the future. But what he does know is 
that his daddy went to work one day and never came home. He also knows 
that daddy died in an explosion. Because of this, the security of his 
world has been shattered. He worries about something bad happening to 
me when he is not with me. The most heartbreaking thing, though, is 
that this beautiful little boy will be deprived of father's love, 
guidance and companionship for the rest of his life.
    As for me, this loss, and my grief, are so big that I can hardly 
find the words to express them. I can best describe it as profound 
heartache. Ron, to me, was an angel here on earth. My angel and my soul 
mate. We were in love from the moment that we met and always knew that 
we were meant to be together. I thanked God every night for nineteen 
years for bringing Ron to me. And I was so proud of him--who he was as 
a man, a husband, a father, a tradesman, a public servant--loyal, 
ethical, loving, intelligent, funny, strong. But most of all, I just 
loved him with all my heart. Nineteen years may seem like a long time, 
but it was not enough.
    The manner and cause of Ron's death have only compounded our 
family's grief. This tragedy should never, ever have happened. It was 
preventable. This is why I urge you, please, do not allow Ron's death 
to be in vain. Real change, real protection for hardworking Americans, 
must come out of this. It is the only way to truly honor him and the 
other men who lost their lives, whose families are forever broken. 
Together with the other tragedies that occurred this year, and the 
world of heartache and loss that have resulted, the lessons here could 
not be any more apparent or urgent. Failing to make good come from this 
would be the biggest tragedy of all.
    My family and I support, wholeheartedly, the enactment of H.R. 
2067, the Protecting America's Worker Act (``PAWA''). We are grateful 
to the many, many co-sponsors of this bill, including Representative 
Courtney and all of the Connecticut Congressional delegation. 
Responsible parties must be held accountable, including civilly and 
criminally, where appropriate. OSHA and other relevant agencies must be 
given the tools and means to make that happen. We also believe that 
safety whistleblowers should be afforded greater protections and that 
victims' families should be allowed greater access in investigations.
    We very strongly support passing legislation making it illegal to 
offer or give financial incentives or bonuses for early completion of 
certain projects like power plants. Finally, we absolutely believe that 
new power plants should not be exempt from regulation.
    Thank you so very much for this opportunity to speak and for your 
work on these critical and urgent issues.
                                 ______
                                 
    Mr. Courtney. Thank you, Jodi, for the courage to be here 
today and to deliver those remarks. As someone who had the 
opportunity to observe Ron's involvement in the community and 
his involvement with his family, every word that you said is 
true and more. I really appreciate you taking the time and 
having the strength of character to be here today.
    Major Giuliano.

             STATEMENT OF HON. SEBASTIAN GIULIANO,
                      MAYOR OF MIDDLETOWN

    Mr. Giuliano. Thank you for the opportunity to address you 
today. I am Mayor Sebastian Giuliano of Middletown, 
Connecticut. While I am not in any position to discuss what was 
happening at the Kleen Energy Plant immediately prior to the 
explosion, I can discuss our response in the aftermath. I have 
some brief remarks, the text of which I will place into the 
record, and then I will be happy to take questions, if Members 
of the Subcommittee would like to ask any.
    All Middletown emergency responders were advised of the 
incident within minutes and immediately went into action. 
Likewise, emergency responders from neighboring communities all 
were on site amazingly quickly. Command posts were established 
and NIMS protocols were instituted. NIMS for those who might 
not be aware or familiar with the acronym is National Incident 
Management System. Firefighters were on site to put out the 
fire and to rescue any victims. Police secured the site and, 
along with the Fire Marshals and after all rescue operations 
were completed, searched for and gathered any evidence of the 
cause and origin of the blast.
    The rapid response and the speed with which resources were 
organized and allocated were due in great part to the training 
in emergency preparedness that we undergo. That training is 
provided for and funded, in significant part, by Congress. 
Without this type of training, this situation undoubtedly would 
have been even more disastrous.
    While prevention is always the best and wisest investment, 
the nature of the response to an incident can make the 
difference between minimization of harm and having a situation 
spiral out of control. I am extremely proud of the manner in 
which our emergency responders handled this tragedy. They 
reacted as professionally and competently as they did because 
they take advantage of every opportunity to train. While we had 
not trained for this specific incident, our normal scenario is 
more likely to be a natural disaster such as a hurricane, flood 
or blizzard, the principles are the same and everybody adapted 
quickly to the situation.
    I would urge that funding for emergency response training 
for local responders be retained, if not increased. As some of 
our nation's largest disasters, both natural and manmade, have 
demonstrated, the most effective response is local response. 
More importantly, in most disaster scenarios, state or federal 
help may be days or weeks away and local responders will likely 
be ``on their own'', at least during the initial stages of an 
event. Being well trained to identify available resources and 
how to summon and deploy them, will make the difference in our 
ability to get through those first few hours or days while 
waiting for state or federal assistance to arrive, or to 
determine whether such assistance will be needed at all.
    I believe that we in Middletown approached this tragedy 
with the correct priorities. On February 7, our focus was to 
bring the event under control, secure the site and search for 
and rescue victims first, then to recover and remove the 
remains of those who lost their lives. Once we had accomplished 
those objectives, the activities changed over to investigation. 
Whether search and rescue or investigation however, all 
appropriate steps were taken throughout the process to ensure 
that the site was as safe as possible for those who had to 
enter.
    Justice requires that, for the sake of the dead and 
injured, we determine what led to this tragic loss of life and 
health. To best ensure that evidence would be preserved, the 
Middletown Police, under the supervision of the State's 
Attorney for the Middlesex Judicial District, procured a 
warrant from a Judge of the Superior Court and secured the site 
as a ``crime scene'' for approximately three weeks thereafter. 
During that time, police, along with the South Fire District 
and the State Fire Marshal, recovered, seized, and secured 
important physical evidence, now undergoing evaluation and 
testing. It is our hope that everything we have done will help 
in the search for answers to the questions that everyone has 
been asking since February: ``How did this happen?'' and ``How 
can we prevent it from happening to someone else?'' If such 
questions can be answered, then those who lost their lives will 
rest more peacefully knowing that their fellow workers will be 
safer in the future.
    I again thank you for taking the time and effort to convene 
this panel and I offer my welcome to all of you to Middletown.
    [The statement of Sebastian Giuliano follows:]

  Prepared Statement of Hon. Sebastian Giuliano, Mayor, Middletown, CT

    Thank you for the opportunity to address you today. I am Mayor 
Sebastian Giuliano of Middletown, Connecticut. While I am not in any 
position to discuss what was happening at the Kleen Energy Plant 
immediately prior to the explosion, I can discuss our response in the 
aftermath. I have some brief remarks, the text of which I will place 
into the record, and then I will be happy to take questions, if members 
of the Subcommittee would like to ask any.
    All Middletown emergency responders were advised of the incident 
within minutes and immediately went into action. Likewise, emergency 
responders from neighboring communities all were on site amazingly 
quickly. Command posts were established and NIMS protocols were 
instituted. Firefighters were on site to put out the fire and to rescue 
any victims; Police secured the site and, along with the Fire Marshals 
and after all rescue operations were completed, searched for and 
gathered any evidence of the cause and origin of the blast.
    The rapid response and the speed with which resources were 
organized and allocated were due in great part to the training in 
emergency preparedness that we undergo. That training is provided for 
and funded, in significant part, by Congress. Without this type of 
training, this situation undoubtedly would have been even more 
disastrous.
    While prevention is always the best and wisest investment, the 
nature of the response to an incident can make the difference between 
minimization of harm and having a situation spiral out of control. I am 
extremely proud of the manner in which our emergency responders handled 
this tragedy. They reacted as professionally and competently as they 
did because they take advantage of every opportunity to train. While we 
had not trained for this specific incident--our normal scenario is more 
likely to be a natural disaster such as a hurricane, flood or 
blizzard--the principles are the same and everybody adapted quickly to 
the situation.
    I would urge that funding for emergency response training for local 
responders be retained, if not increased. As some of our nation's 
largest disasters--both natural and manmade--have demonstrated, the 
most effective response is local response. More importantly, in most 
disaster scenarios, state or federal help may be days or weeks away and 
local responders will likely be ``on their own'', at least during the 
initial stages of an event. Being well trained to identify available 
resources and how to summon and deploy them, will make the difference 
in our ability to get through those first few hours or days while 
waiting for state or federal assistance to arrive, or to determine 
whether such assistance will be needed at all.
    I believe that we in Middletown approached this tragedy with the 
correct priorities. On February 7, our focus was to bring the event 
under control, secure the site and search for and rescue victims first, 
then to recover and remove the remains of those who lost their lives. 
Once we had accomplished those objectives, the activities changed over 
to investigation. Whether search and rescue or investigation however, 
all appropriate steps were taken throughout the process to insure that 
the site was as safe as possible for those who had to enter.
    Justice requires that, for the sake of the dead and injured, we 
determine what led to this tragic loss of life and health. To best 
insure that evidence would be preserved, the Middletown Police, under 
the supervision of the State's Attorney for the Middlesex Judicial 
District, procured a warrant from a Judge of the Superior Court and 
secured the site as a ``crime scene'' for approximately three weeks 
thereafter. During that time, police, along with the South Fire 
District and the State Fire Marshal, recovered, seized and secured 
important physical evidence, now undergoing evaluation and testing. It 
is our hope that everything we have done will help in the search for 
answers to the questions that everyone has been asking since February: 
``How did this happen?'' and ``How can we prevent it from happening to 
someone else?'' If such questions can be answered, then those who lost 
their lives will rest more peacefully knowing that their fellow workers 
will be safer in the future.
                                 ______
                                 
    Mr. Courtney. Thank you, Mr. Mayor.
    Chief Badamo.

            STATEMENT OF EDWARD BADAMO, FIRE CHIEF,
                      SOUTH FIRE DISTRICT

    Mr. Badamo. Members of the Committee, thank you for your 
commitment to workplace and worker safety by holding this 
hearing. I am Edward Badamo, Fire Chief for the South Fire 
District, and I will testify in my role and the role of the 
District in the Kleen Energy incident. The Kleen Energy power 
plant is not the first plant to be located within the South 
Fire District, NRG is actually located right down the street. 
However, this is the first to be fed primarily by natural gas 
fed through the Algonquin Pipeline.
    Prior to the date of the explosion, the plant construction 
from our perspective was moving forward without any fire code 
concerns. Although we were involved in the building and 
inspection process, through plan review and site visits, we 
held no regulatory authority over the gas blow procedure. The 
only issue that we dealt with during the construction was early 
on due to the blasting because this plant is being built on a 
Feldspar Rock quarry and there was localized damage done to 
some homes.
    The role of the South Fire District on the day of the blast 
sounds relatively simple, but was complicated due to the 
processes that existed on the site. I will be brief, but our 
initial efforts were to rescue the injured workers. While the 
firefighters were performing their primary searches, the 
command post was attempting to ascertain from the various 
trades an accountability of who was on site and if they knew 
they were accounted for, where they were so we could direct 
crews to that area. This was extremely difficult and took 
nearly a day and a half before we were able to confidently say 
that everyone was accounted for. During this time we attempted 
to control the power and ensure that the gas to the building 
was secured. We also had a fire in the rear of the building 
that was also being controlled.
    Between the on-site work and the coverage for the remainder 
of the city, the incident required the efforts of 18 fire 
departments, 8 ambulance services, 6 police departments, 6 
Emergency Management Agencies, 16 Community Emergency Response 
Teams, the American Red Cross, the Salvation Army, and several 
other supporting agencies.
    There were a lot of resources utilized that day from a 
fire-rescue perspective that were made possible through the 
various grant funding projects. None of these roles or 
functions would have been easily completed without you 
supporting these grants. The sustainment of the grant programs 
referenced in my full testimony as well as the assistance to 
fire fighters' program in the future is critical, especially to 
small fire departments like ours with limited local resources.
    Over the 21 days that the fire department spent on the site 
for safety, we were confronted with new challenges on a daily 
basis. From the development of procedures for the evacuation of 
the remaining pressurized gas in the pipe, to the removal of 
gas cylinders, to the falling debris hampering the 
investigations, to the coordination of all of the various 
agencies involved, every day was a learning experience.
    The gas blows themselves are not regulated by the fire 
department and according to NFPA 54, power plants are exempted 
from the regulation. NFPA 54 also only regulates piping up to 
125 psi. The day of the blast they were using over 600 psi. 
While we were advised of the schedule of the blows and our fire 
marshal was explained the safety process out of courtesy, we 
made no operational changes for them. The day of the explosion 
was actually the second day of gas blows. They did some the 
weekend prior, and several on that day prior to the explosion.
    Since the investigation is ongoing, I am not going to make 
reference to specific gas-related procedures that should be 
followed for the future. However, I would recommend that the 
process involve a regulatory authority in one form or another, 
whether it is as simple as a requirement that the company 
submit its safety form to an agency for review and then the 
procedures are reviewed by a third party. That process can 
obviously be expanded to include pre-blow inspections and have 
an on-site component during the blows. But more importantly and 
regardless of the changes made to any of the regulations, the 
safety of workers on these types of sites needs to be ensured. 
I feel that the Governor's Commission led by Judge Nevas has 
made some excellent recommendations that will work towards 
ensuring worker safety at least here in Connecticut.
    I would also ask that the Committee investigate and include 
any changes made that large multi-trade sites become required 
to utilize some type of credentialing and accountability system 
for anyone working or visiting the site. This would have made 
our on scene rescue efforts much easier, rather than working 
through a day and a half of interviews and searching before 
everyone was accounted for.
    Finally, I would ask that the legislators not only continue 
to support grant funds for emergency services, but that you 
look into establishing a fund to help support the local 
agencies that are affected by incidents such as this. In this 
case, we were able to successfully seek restitution from the 
company, but if we were not able to or were not successful, 
this would have greatly reduced the department's funds and 
ability to operate.
    Although the families and workers that were killed or 
injured during this disaster are never really going to recover 
from the events of February 7th, it is important to determine 
the cause of the blast and come up with solutions so a tragedy 
such as this never happens again.
    Again thank you for your efforts.
    [The statement of Edward Badamo follows:]

  Prepared Statement of Edward Badamo, Fire Chief, South Fire District

    Members of the Committee: Thank you for your commitment to 
workplace and worker safety by holding this hearing. I am Edward 
Badamo, Fire Chief for the South Fire District and I will testify my 
role and the role of the District in the Kleen energy incident. The 
Kleen Energy plant is not the first power plant to be located within 
the South Fire District, NRG is actually located right down the street. 
However, this is the first to be fed primarily by natural gas fed 
through the Algonquin Pipeline. Although NRG has a gas feed, it does 
not run its turbines by Natural Gas.
    Prior to the date of the explosion, the plant construction from our 
perspective was moving forward without any fire code concerns. Although 
we were involved in the building and inspection process, through plan 
review and site visits, we held no regulatory authority over the gas 
blow procedure. The only issue that we dealt with during the 
construction was early on due to the blasting because this plant is 
being built on a Feldspar Rock quarry and there was localized damage 
done to some homes.
    The role of the South Fire District on the day of the blast sounds 
relatively simple, but was complicated due to the processes that 
existed on the site. I will be brief, but our initial efforts were to 
rescue the injured workers. While the firefighters were performing 
their primary searches, the command post was attempting to ascertain 
from the various trades an accountability of who was on site and if 
they were not accounted for, where they were so we could direct crews 
to that area. This was extremely difficult and took nearly a day and a 
half before we were able to confidently say that everyone was accounted 
for. During this time we attempted to control the power and ensure that 
the gas to the building was secured. We also had a fire in the rear of 
the building that was also being controlled. Between the on-site work 
and the coverage for the remainder of the city, the incident required 
the efforts of 18 fire departments, 8 ambulance services, 6 police 
departments, 6 Emergency Management Agencies, 16 Community Emergency 
Response Teams, the American Red Cross, the Salvation army, and several 
other supporting agencies.
    There were a lot of resources utilized that day from a fire-rescue 
perspective that were made possible through the various grant funding 
projects. The Connecticut Urban Search and Rescue Team which is not 
federally recognized was called to the scene and the local 
decontamination unit was also sent, both of these are funded through 
Homeland security funds. There were interoperable communications 
brought to the site which were funded through the Public Safety 
Interoperability Communications grant. Our local Emergency Management 
Director, the Community Emergency Response teams, and the Incident 
management teams have never operated at a duration incident of this 
length, complexity or magnitude. These are funded through the Emergency 
Management Performance Grant. None of these roles or functions would 
have been easily completed without you supporting these grants. The 
sustainment of these programs as well as the Assistance to Firefighters 
Grant program in the future is critical especially to a small fire 
department like ours with limited local resources.
    Over the twenty eight days that the fire department spent on the 
site for safety, we were confronted with new challenges on a daily 
basis. From the development of procedures for the evacuation of the 
remaining pressurized gas in the pipe, to the removal of damaged gas 
cylinders, to the falling debris hampering the investigations, to the 
coordination of all of the various agencies involved, every day was a 
learning experience.
    The gas blows themselves are not regulated by the fire department 
and according to NFPA 54, power plants are exempted from the 
regulation. NFPA 54 also only regulates piping up to 125 psi. The day 
of the blast they were using over 600 psi. Connecticut adopted NFPA 54 
into its Connecticut State Fire Safety Code. While we were advised of 
the schedule of the blows and our fire marshal was explained the safety 
process out of courtesy, we made no operational changes for them. The 
day of the explosion was actually the second day of gas blows. They did 
some the weekend prior, and several on that day prior to the explosion.
    Since the investigation is ongoing, I am not going to make 
reference to specific gas related procedures that should be followed 
for the future. I would recommend that the process involve a regulatory 
authority in one form or another. Whether it is as simple as a 
requirement that the company submit its safety form to an agency for 
review and then the procedures are reviewed by a third party. That 
process can obviously be expanded to include pre-blow inspections and 
have an on-site component during the blows. But more importantly and 
regardless of the changes made to any of the regulations, the safety of 
workers on these types of sites needs to be ensured. I feel that the 
Governors Commission led by Judge Nevas has made some excellent 
recommendations that will work towards ensuring worker safety.
    I would also ask that the committee investigate and include in any 
changes made that large multi-trade sites become required to utilize 
some type of credentialing and accountability system for anyone working 
or visiting the site. This would have made our on scene rescue efforts 
much easier, rather than working through a day and a half of interviews 
and searching before accounting for everyone.
    Finally, I would ask that the legislators not only continue to 
support grant funds for emergency services, but that you look into 
establishing a fund to help support the local agencies that are 
affected by incidents such as this. In this case we were able to 
successfully seek restitution from the company, but if we were not able 
to or were not successful, this would have greatly reduced the 
department's funds and ability to operate.
    Although the families and workers that were killed or injured 
during this disaster are never really going to recover from the events 
of February 7th, it is important to determine the cause of the blast 
and come up with solutions so a tragedy such as this never happens 
again.
    Again thank you for your efforts.
                                 ______
                                 
    Mr. Courtney. Thank you, Chief.
    Judge Nevas.

 STATEMENT OF HON. ALAN NEVAS, CHAIR, GOVERNOR'S KLEEN ENERGY 
          SYSTEMS AND EXPLOSION ORIGIN AND CAUSE PANEL

    Mr. Nevas. Good morning. This is a role reversal. I 
generally am used to imposing time limitations on the people 
speaking to me, rather than having the time limitations imposed 
on me. However, I left that life a year ago.
    I'm not going to repeat many of the things that have been 
said this morning, but I do want to add some comments of my 
own. First, there was reference, I think, in Ms. Thomas' 
remarks to the fact that this was done so it would be quicker. 
While it's not contained in our report, it was my understanding 
that there was a May 31st deadline and that if the construction 
company met that deadline, there was to be a completion bonus. 
I think that's something that should be explored. It has not 
been discussed a great deal, but certainly something that the 
Committee should be looking at.
    Also, many of the recommendations that I'll summarize in a 
few minutes and that have been made this morning are valid, 
good, and will be very beneficial, but they will take time for 
Congress to act, for the Connecticut General Assembly. So the 
recommendations that we're making, as I'll indicate are 
recommendations that I think can be implemented much more 
quickly by the Siting Council and I'll go into that very 
shortly.
    The Commission that I chaired was charged with determining 
the origin and cause of the explosion which took the lives of 
six men and injured more than 30 other people and our goal was 
to provide information necessary for a second Commission to be 
chaired by Mr. James Thomas, the so-called Thomas Commission, 
to carry out a separate assignment and that is to recommend 
specific legislative or regulatory changes.
    Our work was affected, of course, by the fact that the site 
was designated a crime scene by the Middletown State's 
Attorney's Office and that investigation is still ongoing. We 
heard many, many witnesses testify, all of whom made excellent 
presentations and whose contributions were very valuable. We 
know, of course, from what others have said and we know it is a 
fact that this explosion resulted from a process known as 
cleaning or blowing the pipeline and in this case the blowing 
was effected through the use of large quantities of natural gas 
propelled outside the Kleen Energy power block under very high 
pressure where it accumulated and ignited from a source near 
the power block.
    The investigation is ongoing, of course, and it's going to 
focus on the precise mechanisms and procedures that led to the 
use of natural gas for the cleaning process, as well as the 
manner and means in which the gas was used.
    Armed with this information, we identified the regulatory 
structure applicable to the cleaning process and made suggested 
revisions.
    The construction of this plant was heavily regulated and 
supervised by many agencies including OSHA, the local building 
inspectors, the local fire marshal, state fire marshal, state 
building inspector, DTUC, DET, Connecticut Department of Labor, 
Connecticut Department of Consumer Protection and the 
Connecticut Siting Council. However, as has been said and I 
cannot emphasize strongly enough, no agency, not one agency had 
overall oversight with regard to that part of the process known 
as cleaning or blowing the pipeline, a process that is a 
necessary step in the construction of any natural gas fuel 
power plant.
    The recommendations from the Thomas Commission which we 
made suggest a variety of areas that should be pursued:
    1. Determine whether any other state or federal agency has 
developed a regulatory structure applicable to natural gas 
pipeline cleaning.
    2. Consult with industry experts to determine which methods 
of gas blowing are used and/or recommended, and identify the 
advantages and disadvantages of each method.
    3. Identify the agency, or agencies, best suited to 
regulate the gas blow process.
    4. Recommend the level of training and expertise necessary 
for that agency to effectively establish and enforce necessary 
cleaning regulations.
    5. Consider recommending that the Connecticut Siting 
Council impose safety conditions upon any entity constructing a 
power plant that will employ the gas blow cleaning process.
    6. Consider recommending that the Connecticut Department of 
Consumer Protection and/or the Connecticut Department of Labor 
identify, if appropriate, special licensing, credentials and/or 
training for those assigned to effect power plant gas blows in 
Connecticut. Further, recommend that those agencies address 
whether work schedule limitations are appropriate for those 
assigned to perform power plant gas blows in Connecticut. Some 
of these people have been working many, many hours each day for 
multiple days in a row and that's something that should be 
addressed.
    7. And consider recommending the establishment of 
regulations in the following areas: for every method of gas 
blowing, the qualifications, training, credentials and/or 
licensing needed for the staff involved in the gas blow 
process; determine which and/or whether any of the gas blow 
agents now in use should be permitted in the future; identify 
acceptable practices for each gas blow agent; identify the type 
and level of notice that must be given by the contractor to the 
regulatory agencies, prior to any gas blowing operation; the 
establishment of design specifications for the materials to be 
used in the gas blowing process; the establishment of site 
requirements and limitations, that is, identify the personnel 
who may be on site before and during the gas blow; set the 
qualifications for those individuals; identify the roles of 
individuals permitted to be on site; set appropriate perimeter 
security; consult with appropriate authorities as to the 
propriety of drafting regulations intended to prevent worker 
fatigue; and the establishment of gas blow procedures.
    8. Recommend an agency or entity responsible for serving as 
a ``clearinghouse'' to coordinate the efforts of every 
regulatory agency with responsibilities associated with the 
construction of a power plant.
    In addition to the points that I've made, I want to make an 
additional suggestion to Derek Phelps who is the chair of the 
Connecticut Siting Council. Hopefully, the Thomas Commission 
will develop specific, proposed, statutory and regulatory 
recommendations as quickly as they can. But those 
recommendations will have to await the next session of the 
General Assembly.
    The current permit for the Middletown Kleen Energy facility 
expires on November 30, 2010. And in order to renew 
construction, it must apply for a renewal and/or extension of 
its current permit to the Siting Council. If Mr. Thomas and his 
Commission have made its recommendations by the time the Siting 
Council is prepared to act, I would strongly urge the Council 
to attach as conditions to any permit it issues, language that 
addresses the findings of this Commission and the adoption of 
the specific recommendations of the Thomas Commission.
    It has also been suggested that a ``coordination council'' 
consisting of pertinent state agencies be assembled to share 
information during the course of construction of a large power 
facility. The Siting Council might serve as that coordinating 
entity using its ``changed conditions'' authority if concerns 
arise that there is a pattern of violations during 
construction. The Siting Council should review this report and 
ultimately the Thomas Commission report to determine whether 
its ``changed conditions'' authority would enable it to review 
all power plants within its jurisdiction to determine whether 
such plants warrant further attention.
    It is also suggested that the Thomas Commission solicit 
comments and input from the Siting Council as to how the Siting 
Council might address concerns relative to gas-fired baseload 
power plant facilities that have been permitted in the past and 
the records of which are now closed.
    I want to close in expressing my profound sympathy and 
regret to the families of the victims of the explosion. I 
believe that the most fitting memorial to those victims is a 
careful, precise and thorough response that eliminates the 
possibility of such an event ever occurring in the future. It 
is my firm belief that the work of the Commission, and the work 
of the Thomas Commission, and the Siting Council, and all other 
agencies involved will combine to effect such a result.
    [The statement of Alan Nevas follows:]

      Prepared Statement of Judge Alan H. Nevas, Chair, Governor's
       Kleen Energy Systems and Explosion Origin and Cause Panel

I. Introduction and Executive Summary
    The Commission that I chaired was charged with determining the 
origin and cause of the February 7, 2010, explosion at the Kleen Energy 
construction site in Middletown, Connecticut. That explosion took the 
lives of six men and injured more than thirty other people. The goal of 
the Commission was to provide information necessary for a second 
Commission, to be chaired by Mr. James Thomas (the ``Thomas 
Commission'') to carry out a separate assignment. The Thomas Commission 
has been tasked with recommending any necessary specific legislative or 
regulatory changes.
    The mission of the two Commissions, working interdependently, is to 
ensure that the events of February 7, 2010, are never repeated in the 
State of Connecticut. It is hoped, further, that the recommendations of 
these two Commissions will be of value to this Committee, federal 
regulatory authorities and to regulatory authorities in other states.
    After this Commission began its work, the complexion of the ongoing 
investigation of the Kleen Energy explosion underwent a significant 
change when, on February 23, 2010, a judge of the Connecticut Superior 
Court signed a search and seizure warrant applicable to the site of the 
explosion. This Commission recognized that the criminal option must be 
explored to the fullest, out of respect for the six men who died, their 
families, and those who were injured in the explosion. It was incumbent 
on the Commission to complete its assignment without compromising the 
ongoing criminal investigation. The members of the Commission made the 
following determinations:
    1. The February 7, 2010 explosion was the product of a process used 
to clean a natural gas pipeline using large quantities of natural gas 
that came into contact with an ignition source known in the industry as 
a ``gas blow;''
    2. Although the Kleen Energy construction project was heavily 
regulated by a variety of agencies, no agency regulated the process 
used--or any process that might be used such as gas purging--to clean 
the natural gas pipeline that was the source of the explosion; and
    3. There are significant regulatory steps that should be taken to 
ensure that the events of February 7, 2010 are not repeated.
            The Explosion
    Kleen Energy Systems, LLC began constructing a natural gas and oil-
fired power plant in Middletown, Connecticut in 2008. Kleen Energy 
expected that construction of its plant would be complete sufficiently 
in advance of November 2010, in accordance with its capacity contract 
with Connecticut Light & Power. Kleen Energy's source for natural gas 
was via a pipeline servicing the Northeast. On February 7, 2010, at 
approximately 11:15 a.m., a large explosion occurred at Kleen Energy's 
plant. At 11:19 a.m., first responders in Middletown learned of the 
explosion and received reports of multiple casualties.
    The Commission heard presentations from Middletown South District 
Fire Chief Edward Badamo, who was the incident commander at the site 
and whose Deputy Chief/Fire Marshal, Steve Krol, was statutorily 
charged with determining the origin and cause of the explosion. He was 
aided in his investigation by the Middletown Police Department, and the 
Office of the State Fire Marshal which, in turn, was aided by the 
Connecticut State Police Central District Major Crime Squad.
    Although the investigation is still ongoing, significant resources 
and efforts have been devoted to the investigation, including the 
collection of more than 115 items of evidence and the completion of 
more than 100 interviews, as well as twenty days of on-site 
investigation by multiple investigative entities, including but not 
limited to the South District Fire Department, the Office of the State 
Fire Marshal, the Middletown Police Department, the Connecticut 
Department of Environmental Protection, the Office of the Chief State 
Medical Examiner, The United States Occupational Safety and Health 
Administration, and the United States Chemical Safety Board.
    The investigation to date, although incomplete, established without 
question that the explosion resulted from a process known as 
``cleaning'' or ``blowing'' a natural gas pipeline for the purpose of 
removing debris from the pipeline, i.e., a ``gas blow.'' In this case, 
the ``blowing'' was effected through the use of large quantities of 
natural gas, propelled outside the Kleen Energy power block under very 
high pressure, where it accumulated and ignited from a source near or 
in the Kleen Energy power block.
    Although the investigation is ongoing, and will focus on the 
precise mechanisms and procedures that led to the use of natural gas 
for the cleaning process, as well as the manner and means in which the 
gas was used, dispersed, and ignited, what is known is that it was the 
process of cleaning the natural gas pipeline in the manner described 
that led to the explosion. Armed with this information, my Commission 
identified the regulatory structure applicable to the cleaning process. 
Further, we recommended possible revisions to the regulatory structure 
relative to gas blows for consideration by the Thomas Commission.
            The Existing Regulatory Structure
    The construction of the Kleen Energy plant was heavily regulated 
and supervised by a variety of agencies, including federal OSHA, the 
local building inspector, the local fire marshal (both of whom were 
supported by the Office of the State Fire Marshal and the Office of the 
State Building Inspector), the Department of Public Utility Control, 
the Department of Environmental Protection, the Connecticut Department 
of Labor, the Connecticut Department of Consumer Protection, and the 
Connecticut Siting Council. However, no agency had oversight with 
regard to that part of the construction process known as ``cleaning'' 
or ``blowing'' the natural gas pipeline, a process that is a necessary 
step in the construction of any natural gas-fueled power plant.
            Changes to the Regulatory Structure
    It is for the successor Thomas Commission to determine what 
regulatory changes should be recommended. However, in an effort to 
assist that Commission with its work, we suggested a variety of areas 
that should be pursued. They are as follows:
    1. Determine whether any other state or federal agency has 
developed a regulatory structure applicable to natural gas pipeline 
cleaning (hereinafter, ``gas blowing'' or a ``gas blow'').
    2. Consult with industry experts to determine which methods of gas 
blowing are used and/or recommended, and identify the advantages and 
disadvantages of each method.
    3. Identify the agency, or agencies, best suited to regulate the 
gas blow process.
    4. Recommend the level of training and expertise necessary for that 
agency to effectively establish and enforce necessary cleaning 
regulations.
    5. Consider recommending that the Connecticut Siting Council impose 
safety conditions upon any entity constructing a power plant that will 
employ the gas blow cleaning process.
    6. Consider recommending that the Connecticut Department of 
Consumer Protection and/or the Connecticut Department of Labor 
identify, if appropriate, special licensing, credentials and/or 
training for those assigned to effect power plant gas blows in 
Connecticut. Further, consider recommending that the latter agencies 
address whether work schedule limitations are appropriate for those 
assigned to perform power plant gas blows in Connecticut.
    7. Consider recommending the establishment of regulations in the 
following areas:
    a. For every method of gas blowing, the qualifications, training, 
credentials and/or licensing needed for the staff involved in the gas 
blow process;
    b. Determine which and/or whether any of the gas blow agents now in 
use should be permitted in the future;
    c. Identify acceptable practices for each permissible gas blow 
agent;
    d. Identify the type and level of notice that must be given by the 
contractor to the regulatory agency, or agencies, prior to any gas 
blowing operation;
    e. The establishment of design specifications for the materials to 
be used in the gas blowing process;
    f. The establishment of site requirements and limitations (e.g., 
identify the personnel who may be on site before and during the gas 
blow; set the qualifications for those individuals; identify the roles 
of individuals permitted to be on site; set appropriate perimeter 
security; consult with appropriate authorities as to the propriety of 
drafting regulations intended to prevent worker fatigue).
    g. The establishment of gas blow procedures (e.g., identify what 
other activities, if any, may take place on site prior to, during, and 
after the cleaning process; identify, if appropriate, weather 
conditions that will preclude the cleaning operation; establish 
limitations for the periods of cleaning; establish appropriate site 
monitoring, both in terms of personnel and detection equipment, before, 
during and after the cleaning).
    8. Recommend an agency or entity responsible for serving as a 
``clearinghouse'' to coordinate the efforts of every regulatory agency 
with responsibilities associated with the construction of a power 
plant. The agency or entity recommended would serve to track and record 
the work of all other regulatory agencies. The Department of Emergency 
Management and Homeland Security has expressed a willingness to 
identify models of the latter form of operating structure.
            Statement by the Chairman
    Everyone should be grateful to Governor Rell for her wisdom and 
compassion in dealing with the terrible events that occurred in 
Middletown on February 7, 2010. The findings and recommendations of the 
Commission I chaired and subsequently the Thomas Commission will 
hopefully prevent such a tragedy from occurring in the future.
    The members of the Commission and their staffs worked very hard in 
preparing for our hearings and made essential contributions to our 
final findings and recommendations. Former Commissioner of Public 
Safety John Danaher and his staff assisted in the drafting of our 
report and Chairman of the DPUC Kevin DelGobbo and his staff provided 
the venue for our hearings and gave essential administrative support. 
Attorney Brian Spears of Levett Rockwood P.C. in Westport gave his 
invaluable assistance and input in the preparation of the final report.
    In addition to the points set forth above, let me add an additional 
suggestion to Derek Phelps and the Connecticut Siting Council. 
Hopefully, the Thomas Commission will develop specific proposed 
statutory and regulatory recommendations as quickly as they can. 
However, the adoption of their recommendations will in all likelihood 
have to await the next session of the General Assembly.
    The current permit for the Middletown Kleen Energy facility expires 
on November 30, 2010, and it must apply for a renewal and/or extension 
of that permit. If the Thomas Commission has made its recommendations 
by the time the Siting Council is prepared to act, I would strongly 
urge the Council to attach as conditions to any permit it issues, 
language that addresses the findings of this Commission and the 
adoption of the specific recommendations of the Thomas Commission.
    It has also been suggested that a ``coordination council'' 
consisting of pertinent state agencies be assembled to share 
information during the course of construction of a large power 
facility. The Siting Council might serve as the coordinating entity 
using its ``changed conditions'' authority if concerns arise that there 
is a pattern of violations during construction. The Siting Council 
should review this report and ultimately the Thomas Commission report 
to determine whether its ``changed conditions'' authority would enable 
it to review all power plants within its jurisdiction to determine 
whether such plants warrant further attention.
    It is suggested further that the Thomas Commission solicit comments 
and input from the Siting Council as to how the Siting Council might 
address concerns relative to gas-fired baseload power plant facilities 
that have been permitted in the past and the records of which are now 
closed.

II. Reports by the Members of the Governor's Kleen Energy Origin and 
        Cause Commission
    This Commission was comprised of pertinent Connecticut agencies, 
each of which was tasked with reviewing the circumstances surrounding 
the Kleen Energy explosion and rendering a written report. The reports 
of the agencies and our final report are posted on line at: http://
www.ct.gov/dpuc/.
Conclusion
    I want to close in expressing my profound sympathy and regret to 
the families of the victims of the Kleen Energy Plant Explosion. I 
believe that the most fitting memorial to those victims is a careful, 
precise and thorough response that eliminates the possibility of such 
an event ever occurring in the future. It is my firm belief that the 
work of the Commission, and the work of the Thomas Commission, will 
combine to effect such a result.
                                 ______
                                 
    Mr. Courtney. Thank you, Judge.
    Professor Corbett.

  STATEMENT OF GLENN CORBETT, ASSOCIATE PROFESSOR AND CHAIR, 
   DEPARTMENT OF PROTECTION MANAGEMENT, JOHN JAY COLLEGE OF 
                        CRIMINAL JUSTICE

    Mr. Corbett. Acting Chairman Courtney, Congresswoman 
DeLauro, Congressman Larson, and Congressman Murphy, thank you 
for inviting me to testify about the explosion at the Kleen 
Energy power plant in Middletown, Connecticut. I am an 
associate professor and chair of the Department of Protection 
Management at John Jay College of Criminal Justice in New York 
City.
    Prior to coming to John Jay, I spent nearly eight years as 
a code enforcement official in the Austin and San Antonio, 
Texas Fire Departments. Currently, I am a member of New Jersey 
State's Fire Code Council and continue to be involved in a 
variety of code-related issues. However, I am representing only 
myself today.
    The explosion at the Kleen Energy plant on February 7, 
2010, has exposed a large gap in our national model codes, in 
particular, provisions dealing with natural gas purging and 
``gas blow'' operations. This incident, in addition to another 
similar explosion at the ConAgra Slim Jim plant in Garner, 
Norther Carolina in 2009, demands that this problem be promptly 
and properly addressed in our model codes.
    The inherent danger of purging gas piping of trapped air 
with natural gas is obvious. While such purging operations are 
necessary and commonly take place in small installations such 
as a residential gas-fired equipment without incident, the 
higher volumes of expelled gas in larger commercial and 
industrial installations presents a much greater danger to 
construction workers and the public. Gas blow operations, on 
the other hand, conducted with very high gas pressures and 
using natural gas to remove trapped debris such as slag, are 
inherently dangerous and present significant danger not only to 
the workers, but surrounding occupants to that facility. 
Stringent regulations are critical to ensure proper safety.
    As many of you are aware, our nation relies heavily on the 
construction and safety codes developed by private, non-profit 
code-writing organizations such as the National Fire Protection 
Association and the International Code Council. Their codes and 
standards are adopted, and in many cases modified by local 
governments, states, and the federal government.
    The two most relevant codes addressing gas purging 
operations are the National Fire Protection Association's NFPA 
54: the National Fuel Gas Code and the International Code 
Council's International Fuel Gas Code. However, electric 
utility plants, as identified earlier, such as the Kleen Energy 
facility are outside the scoping provisions of both of these 
codes. In addition, the high pressure gas blow that was used at 
the Kleen Energy facility reported had 650 psi, also outside 
the scope of NFPA 54 and the International Fuel Gas Code. It is 
the scoping provisions of these two codes that create the 
greatest impediment to ensuring worker safety in the 
construction and operation of electric power utility plants 
that utilize natural gas as a field.
    In the wake of the ConAgra and Kleen Energy incidents, the 
NFPA issued an emergency tentative interim amendment to NFPA 
54, changing the gas purging provisions. A subsequent vote was 
taken of the technical committee charged with overseeing NFPA 
54, and it failed to meet the necessary two-thirds affirmative 
vote needed for permanent inclusion in the code. While these 
failed provisions were an improvement on the previous code 
language, these changes would have done nothing to address the 
scoping exemptions. While these failed provisions were an 
improvement on the previous code language, these changes would 
have done nothing to address the scoping exemptions for 
electric utility power plants nor would they have dealt with 
the very dangerous gas blow operations that we've discussed 
already. While the International Code Council has vowed to 
update the 2012 edition of the International Fuel Gas Code, it 
is unclear what those changes may be.
    At the heart of ensuring a safe work environment and public 
safety in terms of gas purging and gas blow operations is code 
enforcement, of course. The enforcement of NFPA 54 and the 
International Fuel Gas Code often lies with local government 
plumbing inspectors, and in some cases, state inspectors. 
However, these inspectors do not typically inspect the gas pipe 
discharge areas prior to the purging or gas blow operations, 
nor do they witness the actual operation itself. The codes do 
not require that an inspection of gas purging operations or gas 
blows be performed. I do not believe that the Occupational 
Safety and Health Administration had a policy of inspecting gas 
purging or gas blow operations at the time of the Kleen Energy 
explosion.
    Looking to the future, I believe that gas purging 
operations in medium and large scale installations, defined by 
pipe size, pressure, gas flow rate, must receive much closer 
scrutiny. I believe that gas blow operations, on the other 
hand, using natural gas are inherently dangerous and must be 
prohibited, substituting the use of compressed air or 
mechanical device such as the ``pigs'' that have been 
described.
    Specifically, I recommend the following changes to NFPA 54 
and the International Fuel Gas Code:
    1. Broaden the scope of these codes to include power 
plants. While some modifications will need to be made to the 
codes, it is crucial that the exception for power plants be 
eliminated.
    2. Require that medium and large scale installations 
receive a permit for gas purging operations. Given the danger 
involved, I recommend that this requirement be placed in NFPA 
54, the International Fuel Gas Code, as well as the Uniform 
Fire Code NFPA #1 which is actually the fire prevention code or 
the typical fire code that many jurisdictions use. Gas purging 
operations in medium and large scale installations should not 
only receive a site inspection and approval of the plumbing 
inspector but should also receive the concurrent approval of 
the local fire marshal.
    3. Prohibit gas blows using natural gas. They should be, as 
I mentioned earlier, conducted using non-flammable gases or 
mechanical devices such as ``pigs'' run through the pipe to 
remove debris.
    It is not clear that NFPA 54 and the International Fuel Gas 
Code will ever actually be changed to include power plants 
within their scopes, however. And this is of grave concern to 
me. I have no confidence the NFPA or the ICC are actually going 
to make these changes that have been discussed here, as well as 
the other witnesses that have discussed already. In addition, 
it is not clear that these codes will be amended to prohibit 
gas blows. These problems are too significant and must be 
addressed immediately.
    I believe that it is imperative that the issue of gas 
purging and gas blows at construction sites be addressed 
specifically by the federal government to ensure worker safety. 
OSHA should develop regulations dealing with gas purging and 
gas blow to operations to ensure worker safety.
    I specifically recommend that OSHA be authorized to create 
regulations dealing with these specific situations, again 
prohibiting gas blowing using natural gas, and instituting 
essentially a permit system similar to what they use for 
confined spaces or what we call lock out/tag out regulations.
    In closing, I wish to thank the Subcommittee on Workforce 
Protections for allowing me to testify on this very important 
issue. I look forward to answering any questions that you may 
have and I ask that my testimony be included into the formal 
record.
    [The statement of Glenn Corbett follows:]

   Prepared Statement of Glenn Corbett, Associate Professor, Chair, 
   Department of Protection Management, John Jay College of Criminal 
                                Justice

    Chairwoman Woolsey, Ranking Member Rodgers, and members of the 
Subcommittee on Workforce Protections: thank you for inviting me to 
testify about the explosion at the Kleen Energy power plant in 
Middletown, Connecticut. I am an associate professor and chair of the 
Department of Protection Management at John Jay College of Criminal 
Justice in New York City. Prior to coming to John Jay College, I spent 
nearly eight years as a code enforcement official in the Austin and San 
Antonio, Texas Fire Departments. Currently, I am a member of New 
Jersey's Fire Code Council and continue to be involved in a variety of 
code-related issues. I am only representing myself today.
    The explosion at the Kleen Energy plant on February 7th, 2010 has 
exposed a large gap in our national model codes, in particular, 
provisions dealing with natural gas purging and ``gas blow'' 
operations. This incident, in addition to another similar explosion at 
a ConAgra Slim JimTM plant in Garner, North Carolina in 2009, demands 
that this problem be promptly and properly addressed in our model 
codes.
    The inherent danger of purging gas piping of trapped air with 
natural gas is obvious. While such purging operations are necessary and 
commonly take place in small installations such as residential gas-
fired equipment without incident, the higher volumes of expelled gas in 
larger commercial and industrial installations presents much greater 
danger to construction workers and the public. Gas blow operations, 
conducted with very high gas pressures to remove trapped debris such as 
slag, are inherently hazardous and present significant danger to 
workers and occupants in a facility. Stringent regulations are critical 
to ensure proper safety.
    As many of you are aware, our nation relies heavily on the 
construction and safety codes developed by private, non-profit code-
writing organizations such as the National Fire Protection Association 
and the International Code Council. Their codes and standards are 
adopted--and in many cases modified--by local governments, states, and 
the federal government.
    The two most relevant codes addressing gas purging operations are 
the National Fire Protection Association's NFPA 54: The National Fuel 
Gas Code and the International Code Council's International Fuel Gas 
Code. However, electric utility power plants such as the Kleen Energy 
facility are outside the scoping provisions of both of these two codes. 
In addition, the high pressure ``gas blow'' that was used at the Kleen 
Energy facility, reportedly 650 psi, is also outside the scope of NFPA 
54 and the International Fuel Gas Code. It is the scoping provisions of 
these two codes that create the greatest impediment to ensuring worker 
safety in the construction and operation of electric power utility 
plants that utilize natural gas as a fuel.
    In the wake of the ConAgra and Kleen Energy incidents, the National 
Fire Protection Association issued an emergency tentative interim 
amendment to NFPA 54, changing the gas purging provisions. A subsequent 
vote taken of the technical committee charged with overseeing NFPA 54 
failed to meet the necessary \2/3\ affirmative vote needed for 
permanent inclusion in the code. While these failed provisions were an 
improvement on the previous code language, these changes would have 
done nothing to address the scoping exemptions for electric utility 
power plants nor would they have dealt with the very dangerous gas blow 
operations. While the International Code Council has vowed to update 
the 2012 edition of the International Fuel Gas Code, it is unclear what 
those changes may be.
    At the heart of ensuring a safe work environment and public safety 
in terms of gas purging and gas blow operations is code enforcement. 
The enforcement of NFPA 54 and the International Fuel Gas Code often 
lies with local government plumbing inspectors, and in some cases, 
state inspectors. However, these inspectors do not typically inspect 
the gas pipe discharge areas prior to the purging or gas blow 
operations nor do they witness the actual operation itself. The codes 
do not require that an inspection of gas purging operations or gas 
blows be performed. I do not believe that the Occupational Safety and 
Health Administration had a policy of inspecting gas purging or gas 
blow operations at the time of the Kleen Energy explosion.
    Looking to the future, I believe that gas purging operations in 
medium and large scale installations (as defined by pipe size, 
pressure, and gas flow rate) must receive much closer scrutiny. I 
believe that gas purging operations using natural gas are inherently 
dangerous and must be prohibited, substituting the use of air or 
mechanical devices such as a ``pig.''
    I recommend the following changes to NFPA 54 and the International 
Fuel Gas Code:
    1. Broaden the scope of these codes to include power plants. While 
some modifications will need to be made to the codes, it is crucial 
that the exception for power plants be eliminated.
    2. Require that medium and large scale installations receive a 
permit for gas purging operations. Given the danger involved, I 
recommend that this requirement be placed in NFPA 54, the International 
Fuel Gas Code, as well as the Uniform Fire Code NFPA #1 and the 
International Fire Code. Gas purging operations in medium and large 
scale installations should not only receive a site inspection and 
approval of the plumbing inspector but should also receive the 
concurrent approval of the local fire marshal.
    3. Prohibit gas blows using natural gas. Gas blows should be 
conducted using non-flammable gases or mechanical devices such as 
``pigs'' run through the pipe to remove debris.
    It is not clear that NFPA 54 and the International Fuel Gas Code 
will ever actually be changed to include power plants within their 
scopes. In addition, it is not clear that these codes will be amended 
to prohibit gas blows. These problems are too significant and must be 
addressed immediately.
    I believe that it is imperative that the issue of gas purging and 
gas blows at construction sites be addressed by the federal government 
to ensure worker safety. The Occupational Safety and Health 
Administration (O.S.H.A.) should develop regulations dealing with gas 
purging and gas blow operations to ensure worker safety.
    I recommend that O.S.H.A. be authorized and charged with developing 
regulations dealing with all gas purging and gas blowing operations, 
including the following:
    1. A prohibition on gas blowing operations using natural gas.
    2. A permit system for conducting gas purging operations in large 
scale commercial and industrial occupancies. Regulations similar to 
O.S.H.A.'s confined space ``lock-out tag-out'' permit requirements 
should be developed to ensure proper gas purging operations in large 
installations. A permit will ensure that the site of the purging 
operation has been inspected for proper equipment installation, the 
necessary monitoring equipment is in place, and that a safe dispersal 
area has been established prior to conducting the operation.
    In closing, I wish to thank the Subcommittee on Workforce 
Protections for allowing me to testify on this very important issue. I 
look forward to answering any questions that you may have.
                                 ______
                                 
    Mr. Courtney. Thank you, Professor Corbett. For the record, 
I just wanted to add that we also have written testimony 
submitted by Carle Crabb, Ron Crabb's brother which again the 
Committee will take to Washington.
    And Carle is seated in the front row and thank you for 
being here today.
    [The statement of Carle Crabb follows:]

     Prepared Statement of Carle Ray Crabb IV, Brother of Ron Crabb

    Hello, my name is Carle Ray Crabb IV. I am the brother of Ron 
Crabb, who died, in the tragic explosion on February 7, 2010 at the 
Kleen Energy Power Plant in Middletown, Connecticut. We were both 
Journeyman Pipefitters and did a 5 year apprenticeship, and have over 
15 years in the trade. We both worked primarily in the heavy industrial 
and commercial fields in our trade. I have worked in gas, coal, oil, 
and nuclear power houses. I've also worked in U.S. Government labs, 
along with the chemical, automobile, pharmaceutical, food industries, 
gas, oil refineries, and pipelines. Our jobs can be dangerous, but with 
the responsible parties taking proper safety precautions and proper 
safety training methods, you should be able to go home at night and see 
your family.
    My brother ranked right up there with some of the most 
knowledgeable pipefitters that I know. If I ever had a question I could 
call him and get an answer. I talked to Ron quite often, at least every 
other week if not weekly. For the two weeks prior to Feb 7th we 
probably talked 10 times.
    When my brother and I got into the trade in the early 90's it was 
quite enjoyable. An honest 8-for-8, do it right the first time, do 
quality work, and be a skilled craftsman. We were proud to be 
steamfitters (pipefitters).
    Unfortunately, the industry has morphed into is totally different 
nowadays. It is not just our trade, but just about every business in 
America. We are in a period where only one thing matters, and that is 
making money. Most industries take every short-cut possible and cut 
costs in every way possible. They are running on such bare bones--
manpower, knowledge, and resources--that human life and fines are 
figured into the cost of doing business. Not all, and I would like to 
thank the few that care, especially Exxon Mobile; their safety program 
should be a role model for the rest of them.
    From my perspective on what should of happened on Feb 7th, 2010 at 
the Kleen Energy plant in Middletown, CT and what actually happened is 
unmistakably, pure and simple, TOTAL GROSS CRIMINAL NEGLIGENCE! The 
shortcuts and total disregard for safety were unbelievable from my 
experience as a journeyman pipefitter!
    You might ask yourself how could this act of total disregard 
happen; pure and simple--MONEY AND LACK OF REGULATION!--HURRY IT UP AND 
GET IT DONE MENTALITY. Which in this instance, when dealing with a 
procedure that is this dangerous, it is PURELY CRIMINAL!
    Unfortunately there is no regulatory body or set regulations for 
this procedure in a new powerhouse. It is totally up to the General 
Contractor to police the subcontractors and their safety teams. In 
other words, it's the Wild West. This procedure has been done many 
times safely, but each time it is up to the safety teams to write the 
procedures, and unfortunately, many times, not only have these safety 
teams ever worked in the heavy industry field, but have never seen or 
been involved in a line purged with natural gas!
    I don't know how a procedure could have changed so dramatically 
from Feb 4th to Feb 7. 2010, but it went from having a plan to the wild 
west in three days. If you get a chance, take a look at the action 
taken on the 4th then look at the 7th. The difference is purely 
criminal; these poor gentlemen did not stand a chance.
    I ask members of this panel and every member of the U.S. House of 
Representatives to please get some regulations on this procedure and 
please pass P.A.W.A.-H.R.2067 because this has been a terrible year for 
the American Worker.
    In the two weeks leading up to the explosion my brother and I 
talked around ten times. We talked about a lot of topics family, 
hunting, fishing, sports, their new G.S.P. puppy, Maya, and a little 
about work. When it came to the subject of work there was a lot of 
stuff that we just didn't have to say to each other as it was just a 
``given''. Like ``they are cutting corners'' or ``they want more 
production'' or ``the safety department is a joke;'' it all was a 
given. When Ron mentioned the blow down more than twice, I knew he was 
nervous about it. My thought s on it were he will be all right because 
he was a General Foreman for the instrumentation and had nothing to do 
with it. He should be in the trailer or not on-site when this procedure 
will be going on.
    On Saturday, February 6, 2010, we talked for an hour. Ron went into 
great detail about his 2 son, areas we only talked about briefly. I 
could tell he was nervous about tomorrow the way he opened up. We ended 
our conversation like we always did--Love and Miss You Bro, be Safe.
    On Feb 7, 2010, around 7p.m., when my mother and myself finally got 
the confirmation of his death, all I could say to her was how unfair 
life can be. Here is a person who used every minute of every day, had 
so much going for him and his family, and was basically a role model 
for everyone he came in contact with. What a tragedy!
    On many occasions I have flown into Bradley Airport to see my 
brother, his family, and their faithful G.S.P. Rooster. But on February 
8, 2010, it was the hardest landing I ever had to do because this time, 
my brother would not be there. I knew that from this day forward, like 
so many of my brother's friends and complete strangers, the only thing 
that matters is seeing Jodi, Dylan, and Tyler through this tragic 
event. The next week has been hard on us all. The one reality check I 
had every day was trying to get my brother's dog into the house. He sat 
on the ice of the drive way, through snow and freezing temps, for hours 
at a time--waiting for my brother to come home; but this time he was 
not coming.
    Ron was more than a brother to me. I always considered him to be my 
life-mate someone to grow old with and share the many laughs of life. I 
guess I have to thank God for all the time we spent together hunting, 
fishing, playing baseball, and just being brothers. Love and miss you 
Ron--be safe for ever.
    Once again I beg this committee and congress to pass legislation 
for this process and to pass P.A.W.A. H.R.2067 to protect myself and 
all American Workers!
    No man or woman should not be able to return to their home at the 
end of the work day.
    Thank You.
                                 ______
                                 
    Mr. Courtney. Now we're just going to open it up to some 
questions. I just wanted to start by first of all, Jodi, when 
you described Ron's position at the site, it was significant 
that you described he was actually working on instrumentation 
and controls. Is that correct?
    Ms. Thomas. Correct.
    Mr. Courtney. So he actually was there on the site not 
directly involved in the gas blow procedure, isn't that 
correct?
    Ms. Thomas. Correct. He was not working for Keystone which 
was the subcontractor.
    Mr. Courtney. The subcontractor who was in charge of the 
gas blow. And I guess just to sort of go back to the Chief's 
testimony and the Judge's testimony about trying to get some 
rules in place for when these procedures are taking place in 
terms of whether or not people who were not directly involved 
in the gas blow, even really belong on the site when something 
like this is occurring. And the fact that it appears there were 
no rosters that you could consult in terms of--maybe just sort 
of respond to that, Chief.
    Mr. Badamo. There were supposedly some rosters that we were 
never ever able to truly locate, nor were we ever able to truly 
locate the people who had those rosters. So we simply had to go 
by the word of the workers and that took a day and a half to 
interview all of the workers on that site that day to determine 
whether all of them were accounted for.
    Mr. Courtney. So obviously, it would have been much better 
for you if you would have been able to arrive at that scene and 
have a list of exactly who was there, obviously on the site, 
and that was not available to you?
    Mr. Badamo. Correct. From a fire department perspective, we 
don't operate on any site without a true accountability of all 
of our personnel, where they are. We have a tag system. We know 
every single person who is on that site and usually where they 
are on that site. A system like that being employed here would 
have made our efforts in the rescue and finding of the victims 
much easier.
    Mr. Courtney. And Judge, again, you sort of raised the 
question of whether or not something, when a procedure like 
this is taking place, whether or not there's any reason for 
people who are not directly involved to even be within the 
radius of the activity and that seemed to be one of the 
recommendations you wanted to make to the Siting Council. 
Obviously, that didn't take place in this incident.
    Mr. Nevas. That's correct. The Chief, I think, articulated 
it correctly that anybody could be there, just walk on the 
site, no record of who was there or who wasn't there. I suppose 
there was a time record in terms of their punching in at the 
beginning of the work day, but in terms of maintaining rosters 
or any oversight of who was there, my understanding is that 
there was none. So anyone could wander in and out of the site 
at will.
    Mr. Courtney. So Professor Corbett, aside from getting to 
the sort of core issue of whether or not natural gas blows 
should be permitted at all, the fact is there still aren't 
basic rules about evacuating nonessential personnel or even 
keeping adequate records of who's there. That's how unregulated 
this procedure is. Is that correct?
    Mr. Corbett. Right. Obviously, this disaster brought this 
all to the forefront and there's a bunch of issues that you've 
heard here today that need to be addressed certainly.
    Mr. Courtney. And I guess just to go back to your point 
about whether we can rely on voluntary code regulation which 
has been really the operating system for this industry, I mean 
you're somebody who has been directly involved with that 
process. I mean it sounds like you're saying we've really just 
got to go to a different place to get rules and I wonder if you 
could sort of comment about whether making recommendations 
really should be what this Committee should do or whether or 
not we should move more directly to changing the law.
    Mr. Corbett. Thank you for asking that question. I just 
want to spend a couple of moments talking about my involvement 
over the last several years, particularly with issues of 9/11 
specifically. I work a lot with a lot of 9/11 families and of 
course, there's a variety of issues that have come up with 
respect to highrise building design, for example.
    I will preface the rest of my comments with saying I'm a 
member of the NFPA and they do a lot of good things, but in my 
career I've encountered several of these kind of wait a minute 
moments with the NFPA specifically on very obvious problems 
that they fail to address. I brought with me today a book that 
actually two years ago, almost exactly two years ago, I went 
with a colleague and several family members from 9/11 to the 
NFPA Standards Council which is the top entity within their 
structure that actually is the final step before codes are 
issued. And one particular thing that had come up and one 
proposal that my colleague had made was to actually widen 
stairwells in highrise buildings from the more traditional 44 
inches that is pretty much the standard across the country to a 
wider 56 inches. Forty-four is actually based upon the width of 
a World War I soldier's shoulder width. That's how far back 
that 22 inch times 2 rule goes to essentially come up with 44 
inches.
    And in the wake of 9/11 that was one of the things I 
thought would be a very easy thing to change. I thought it 
would go through without any question. Well, I was wrong 
because we actually did try to change this to widen stairwells 
to 56 inches. Again, I went to the Standards Council with my 
colleague and other individuals who are concerned about this 
issue and we were turned down. I even brought this text called 
``Walking Forward, Looking Back''. It's actually a set of 
photographs taken on 9/11 including the only known set of 
photographs taken inside either of the towers that survived, 
the photographs that survived. And I showed the Standards 
Council this one particular photograph and if you look at it, 
you can actually see the people standing on the stairwell 
stopped to let the firefighters go by. And I though here's 
something as basic as the ability for a set of firefighters to 
go up and a set of civilians to go down or just as importantly 
two sets of civilians to go down in a stairwell because some 
people, of course, take longer than others and this would allow 
a more quicker descent.
    In retrospect, we learned with the investigation, for 
example, that had the attacks occurred later in the day, of 
course, it would have been more people in those buildings and 
in actuality people would have died leaving, trying to get out 
of the building because the stairwells would have been so 
crowded. So all these issues, this photograph which I showed to 
all the members of the Standards Council and said, ``please, 
make this simple change of going from 44 to 56'' fell on deaf 
ears and to this day that regulation was never changed.
    And again, I've had experiences like this through my career 
either as a participant or as an observer and this is the 
situation my final comment would be. This is the situation for 
Congress to act. When the private sector, like the NFPA or the 
International Code Council, does not act, I think the ball ends 
up in your court and you actually have to move these changes. I 
think we should forget about the NFPA and ICC and go right to 
OSHA to deal with the situation.
    Mr. Courtney. Thank you, Professor.
    Mr. Corbett. Thank you.
    Mr. Courtney. Congresswoman DeLauro?
    Ms. DeLauro. Thank you very much, Mr. Chairman. And I want 
to say thank you to all of you. We spend a lot of time in 
hearings, my colleagues and I, and listen to testimony. I want 
to just really applaud the clarity of the testimony and the 
candor and the lucid recommendations that this Committee can 
take back on a number of instances, whether listening to 
family, listening to local government, the challenge of the 
state government and the Commission, and the Chemical Safety 
Board and our expert in the Fire Protection Codes.
    Let me start with a question to both Mr. Bresland, Mr. 
Corbett, and I think you've stated this, but I want to try to 
ferret it out a little bit more.
    How confident are you that OSHA will issue a new regulatory 
standard for the practice of gas blower purging? That is to 
come up some time in July. Does OSHA even have the authority to 
issue a new safety standard in this area? Let me just lay out a 
couple of things.
    Dr. Bresland, do you concur with Judge Nevas' particular 
recommendations and particularly his comments on the role of 
the Siting Council in that effort?
    Mr. Bresland. Well, just let me address the issue of OSHA, 
because we did meet with the Assistant Secretary Michaels the 
week before last to discuss the issue of the recommendations 
that we were planning to make to OSHA. They were receptive to 
those recommendations which basically will say OSHA should ban 
the practice of venting natural gas directly to the atmosphere 
in these high-pressure systems.
    However, the second comment that we got from them was that 
developing regulations in OSHA is a very lengthy process and 
they were talking in terms of five years to do this.
    Ms. DeLauro. It doesn't have to be that way.
    Mr. Bresland. I think you maybe want to go and talk to them 
and find out why it is that way, but that is certainly a fairly 
consistent refrain that we do get from OSHA on several 
recommendations that we have made to them.
    Perhaps a legislative approach to this would be a more 
direct and faster way to do it. As I said in my comments, I 
find it quite--I'm not sure what word to use, maybe bizarre is 
the right word to use, that a company will spend what I 
understand is $1.3 billion building operations like this, 
they're within months of starting it up, and then they use this 
inherently dangerous process and basically blow it up and kill 
people, injure people. It doesn't make any sense to me.
    Ms. DeLauro. Mr. Corbett, the point is though as well that 
natural gas is readily available and that's why it's used for 
this process. There are safer alternatives that clearly--there 
have been demonstrated safer alternatives. Why are we not 
moving to those safer alternatives and that become the 
standard? Just explain to me why this has to be the case? We 
know it's a proven effort to use the pigging, air, whatever it 
is. I'm not an expert in these areas, but I've read enough to 
know that there are safer alternatives.
    Why aren't we mandating safer alternatives?
    Mr. Corbett. I agree with you totally. I mean I would 
imagine why it's conducted this way is because of cost. That's 
the simplest answer for the question.
    Ms. DeLauro. It's less costly to use natural gas to do this 
procedure?
    Mr. Corbett. Natural gas is right there, it's readily 
available. So we've got to bring in other equipment, 
procedures, people, perhaps to do the perhaps the--it would be 
obviously a more safe process of using either the pigs or using 
compressed or what have you, so but why in the regulatory 
standpoint, again in the private sector, I don't understand--
this is again, this is the 800 pound gorilla that's in the room 
and the NFPA and the ICC and I just don't understand why they 
won't address it. The only thing I can, of course, surmise, is 
that a lot of these technical committees and that's where a lot 
of the work is done are dominated by industry representatives.
    So that's why I'm suggesting that although OSHA, of course, 
as we have heard has issues of trying to get regulations put in 
place. That takes time as well, but I don't know what the other 
alternative is because again we're totally relying on the 
private sector to develop these codes and standards. If they're 
not going to do it, then OSHA seems like the only path that we 
can go down.
    Ms. DeLauro. I know that my time is up. Judge Nevas, which 
agency should be in charge? If no agency is in charge, who 
should be in charge from your investigation?
    Mr. Nevas. In the best of worlds, OSHA. But I think we 
should be realistic here and practical and we know, you know 
far better than I, that for a regulatory, a federal regulatory 
agency to make major changes in its regulations is going to 
take a long, long time.
    I just commented to the Chief, luckily, if it got done in 
three years I think that would be a miracle, but my point and 
the point I want to emphasize and I obviously speak only for 
the Commission that I chair and we are concerned with the State 
of Connecticut and how it will move forward. Obviously, I 
think, I hope that we can provide a model for other states to 
follow. But my point is that all of these safety measures that 
have been discussed this morning, the recommendations to OSHA, 
to you, for federal legislation and the suggestions that I make 
can be implemented for Connecticut quickly, quickly. We can get 
it done in the next four or five months because that Siting 
Council will have jurisdiction over Kleen Energy when they come 
to the Siting Council, whenever they come. It will obviously 
have to be some time this summer or early in the fall and say 
we want to resume construction. We want to complete this plant, 
but we need a new permit because we can't get it done by 
November 30th. And the Siting Council will be able to say we'll 
give you that permit, but you're going to have to agree to do A 
through Z when you resume construction.
    So for Connecticut, we can get it done quickly. From your 
perspective on a national view, obviously you're constrained by 
legislation, by committee work, by bureaucracy, but we're not 
going to be constrained by that here in Connecticut and we can 
get it done.
    Ms. DeLauro. Thank you so much.
    Mr. Courtney. Mr. Murphy.
    Mr. Murphy. Thank you. Let me ask maybe the predicate to 
Representative DeLauro's question of why haven't we changed 
from gas? Why use gas in the first place? Is it an issue of--
and I guess this is a question for Professor Corbett. Is it an 
issue of cost? Is it an issue of effectiveness versus the other 
potential technologies? Why is gas so prevalent, given the fact 
that even someone without a chemical safety background could 
understand that it's the most volatile of the potential litany 
of tools to use?
    Mr. Corbett. All I can say is that I think it comes down to 
cost because the gas is already there. You know, if we talk 
about doing mechanical pigs or using compressed air, nitrogen, 
what have you, all those things are additional work and time 
and money. So I think that's really what it comes down to, but 
again given its obvious danger, it's unfathomable to me why we 
continue to do this. I mean we're just--I guess we can say 
we've been lucky where explosions haven't happened and so----
    Mr. Murphy. Banning gas seems like a no brainer and I guess 
I'd like to examine a little bit more about the NFPA for a 
second. If I'm a worker on one of these sites, it would make me 
very uncomfortable to know that the entity in charge of 
developing these standards is representative, in part or in 
large part, by industry which has an incentive to try to lower 
costs and to try to decrease the time of completion, especially 
if there's money involved.
    Can you talk a little bit as a member of that body, can you 
talk a little bit about who in NFPA is accountable to how you 
get selected to that panel? Tell us a little bit about that 
Board.
    Mr. Corbett. I am a member of the NFPA, as a general 
member, but they issue hundreds of codes and standards for a 
variety of things. And each one of them has at least one 
technical committee which is responsible for sort of overseeing 
the document in this case, let's say NFPA 54.
    On those committees, in their structure, they are supposed 
to have specific numbers of different types of people on those 
committees. It could be enforcement authority. It could be 
special knowledge expert, industry reps, insurance industry, 
all those kind of people who are supposed to be on those 
committees. And so when you actually look at the committee 
membership very often you'll see that there's an imbalance in 
some cases where too many of one type of entity--as a matter of 
fact, one of the CSB identified another, ironically another 
what's called a recommended practice, NFPA 850, which is 
specifically for electrical power plants and there's not one 
fire service or enforcement official I can even see on their 
committee and ironically they have identified that that code 
and standard refers back to NFPA 54 for natural gas, 
ironically, which on the other hand is exempted in the other 
standard, so there is a lot of issues here. I think that we 
depend very heavily on them.
    And again, on the balance, they do a lot of good work, but 
there are situations where things like this happen that are 
real problematic.
    Mr. Murphy. Mr. Bresland, can you comment on this issue for 
a moment on whether we are smart or not to rely on a body that 
is populated in large part by industry and has an imbalance on 
many of its committees with respect to either safety 
professionals or representatives of labor, representatives of 
the workers who are doing this on the ground. What are your 
thoughts or CSB's thoughts on the reliance that we have on 
these voluntary organizations and the makeup of the 
organizations?
    Mr. Bresland. I should point out that at our hearing this 
evening when we're going to vote on our recommendations, we 
have recommendations proposed to a variety of different 
organizations, not just OSHA, but we've got recommendations to 
the National Fire Protection Association; recommendations to 
the American Society of Mechanical Engineers; recommendations 
to the major gas turbine manufacturers; recommendations to the 
Governor and to the State of Connecticut which basically says 
we recommend that the State of Connecticut actually ban this 
practice of using flammable gas; and a recommendation to the 
Electric Power Research Institute.
    Going back to one to the major gas turbine manufacturers, 
they do require that the gas be cleaned before it goes into 
their turbines. These are very, very expensive pieces of 
equipment and we are recommending that they develop technical 
guidance for the cleaning of the fuel pipeline without using 
natural gas. And I think if we're looking for a quick way to 
solve this problem without either OSHA or without waiting for 
OSHA or without waiting for legislation, the people who have 
the most interest in making sure that they do not get dirty gas 
and they do not blow these facilities up would be the 
manufacturers of the turbines.
    Your question on NFPA, I'm not an expert on NFPA, but I've 
dealt with them off and on during my eight years on the 
Chemical Safety Board. I've been, I guess, confused by their 
process and why they developed really good recommendations and 
good practices and other times, for example, with ConAgra, the 
one that happened that last year, there are issues and it 
doesn't seem to move forward in a way that would make just 
common sense.
    Mr. Murphy. Thank you.
    Mr. Courtney. We're going to do another round of questions, 
if people don't mind. And thank you again for your great 
testimony and patience.
    Mr. Bresland, it was almost just a few days before February 
7th that the Chemical Safety Board had made urgent 
recommendations again to the industry and again to some of the 
voluntary codes which were not--which fell short of actually 
banning the natural gas blow process. Again, it was more 
focused on whether or not people should be in enclosed spaces 
where this procedure was going forward.
    Obviously, you've sort of moved, the CSB has sort of moved 
to where again tonight you'll be making a different set of 
recommendations and I guess what happened, first of all, 
between then and now, both procedurally, but also substantively 
as far as the CSB was concerned?
    Mr. Bresland. Well, there are two--what happened is that 
there are two completely different situations. In the case here 
in Middletown you're dealing with high pressure gas, 600 psi 
blowing out into the atmosphere. In the case at ConAgra, it was 
just the normal gas that perhaps that you would be using in 
your home, low pressure gas and they were in the process of 
starting up a hot water heater and they allowed that gas to 
vent inside the building, so the low pressure gas vented inside 
the building. The concentration of gas buildup that came in 
contact with an ignition source and there was a catastrophic 
explosion that killed a number of people and basically 
destroyed that facility because it has closed down with the 
loss of hundreds of jobs.
    So you're dealing in one case with a very high-pressure 
issue of gas being blown to into the atmosphere and the other, 
you're dealing with low-pressure gas being allowed to build up. 
What we recommended was that that build up of gas inside the 
building should be prevented. Hopefully, there will be a 
recommendation by NFPA going in that direction, although as 
Professor Corbett has said it's run into some roadblocks along 
the way.
    Mr. Courtney. So then there's some distinction in terms of 
what you'll be recommending tonight between--what you're 
talking about tonight will be focused on power plants as 
opposed to sort of smaller cleaning operations like the 
ConAgra, so there will be sort of a threshold difference?
    Mr. Bresland. What we'll be recommending tonight will be 
both. We'll be recommending that OSHA prohibit the release of 
flammable gas to the atmosphere. That's the issue that we're 
talking about what happened here at Kleen Energy in Middletown.
    We're also recommending that and the words are ``prohibit 
fuel gas venting or purging indoors, prohibit venting or 
purging outdoors where fuel gas may form a flammable 
atmosphere.'' So we're going with both instances, although in 
reality they are two very different issues.
    Mr. Courtney. Thank you. Professor Corbett, when we had our 
hearing last week on Deepwater Horizon, there was testimony 
that the oil rig workers actually, there's a procedure for sort 
of time out that they could basically stop working and try and 
put again sort of an emergency procedure to protect themselves. 
And again, Ms. Thomas testified about Congresswoman Woolsey's 
bill, the Protecting America's Workers Act, which would again 
provide that sort of across-the-board.
    What's your opinion about this situation? I mean were 
workers, do they have that capacity to--like they did 
apparently on an oil rig or do we still have gaps even in 
something as basic as that?
    Mr. Corbett. Not to my knowledge. I don't think that 
existed in this particular situation, so I mean with the 
absence of the regulations you're reliant then on the 
contractor to set up the procedures and things and to some 
extent the local community to be involved with that. But I 
don't believe so, no.
    Mr. Courtney. Thank you. Another area for us. Congresswoman 
DeLauro.
    Ms. DeLauro. Just a couple of quick things. Is the safety 
meeting that didn't happen, is that required before a gas blow, 
can anybody just tell me? Is that a requirement to have a 
safety meeting before a gas blow?
    Mr. Bresland. I don't think there would be a legal 
requirement that you would have a safety meeting before a gas 
blow. It's probably a function of either the company's policy 
or perhaps a union agreement, a labor agreement between labor 
and management.
    Ms. DeLauro. But it's not mandated to do something like 
that.
    Mr. Bresland. I don't think so.
    Ms. DeLauro. Quick question to you, Chief, was anyone from 
your Department present during any of the gas blow procedures 
conducted on the site?
    Mr. Badamo. No. We were notified of them, but were not 
present.
    Ms. DeLauro. Mr. Corbett, you say that--the Chief said a 
Fire Marshal was informed. He couldn't take any action because 
he has no authority, the Fire Marshal. Should the Fire Marshal 
have authority?
    Mr. Corbett. I think part of it also is the fact, I mean, 
even myself--I wasn't very familiar with gas blow operations 
until this incident occurred. And I don't know, and again I 
can't speak for the Chief, but I would imagine it wouldn't 
probably set off any alarms in their organization, but I mean I 
would almost bet you if someone walked in to the Chief and 
said, ``Chief, I'm going to be blowing 400,000 cubic feet of 
gas, is that okay with you?'' I'm sure he would have probably 
said, ``no.''
    Ms. DeLauro. If NFPA applied to power plants, would local 
authorities come into play? Would that have made this event any 
different?
    Mr. Corbett. Again, the gas blow, we have to distinguish 
between the gas purging operations that are in NFPA 54 right 
now as specified dealing with trapped air inside the pipe as 
opposed to gas blow situations which are an attempt to blow 
debris and other kind of things out of the pipes, so gas blows 
aren't even defined in NFPA 54. Even if the scope was expanded 
to include power plants, gas blows aren't even in there right 
now.
    Ms. DeLauro. Mr. Bresland, in your testimony there is a 
chart which is a really extraordinary chart here. It's a graph 
that shows the annual U.S. consumption of various flammable 
gases, although propane and other liquified petroleum gases, 
hydrogen and acetylene are regulated, I need my glasses here--
there it is, it's right there. Okay, so that you can see, but 
OSHA currently has no specific standard for the safety of 
natural gas, for methane, which is by far the most common gas. 
Why? And you have looked at these issues for a while and why 
are power plants exempt from these regulations and these 
assessments?
    Mr. Bresland. The answer to your first question about 
natural gas regulation, I don't know why there are no specific 
OSHA regulations regarding natural gas.
    Ms. DeLauro. Is there any history of that? Do you know 
anything about that or the exemption in terms of power plants' 
exemption?
    Mr. Bresland. I don't know that is an exemption per se, 
it's just something that hasn't happened. It hasn't been 
addressed over the years.
    Your second question, what was the second part of your 
question?
    Ms. DeLauro. I'm trying to remember. Oh, it's actually the 
exemption, why power plants----
    Mr. Bresland. That might be a better questions for 
Professor Corbett to answer because he's more of an expert on 
NFPA issues than I am.
    Ms. DeLauro. Why are power plants exempt?
    Mr. Corbett. I don't know. I really don't. I'm not sure. 
There are other codes and standards in the NFPA that 
specifically either scope in or scope out specific types of 
buildings' occupancies and I don't know for those reasons 
either why that happens.
    I know again, another colleague years ago, they tried to 
put in the scope of a particular code that deals generally with 
life safety issues. They wanted a specific requirement in there 
to specifically state the users of the code that this code was 
not to be applicable for terrorism-resistant building designs 
and the NFPA turned them down on that proposal which implies 
that the code should be used for that. So it's very confusing.
    I don't have an answer for you. I think we'd have to ask 
them.
    Ms. DeLauro. Mayor, the training and the resources to train 
your first responders, can you make the federal connection or 
connect the dots between the resources that the Federal 
Government provides in this area and your ability and Chief 
Badamo's ability to do the kinds of job that's needed to be 
done on the night of February 7th?
    Mr. Giuliano. Well, Congresswoman, this is really something 
that comes through Homeland Security. And they set the 
standards, National Incident Management System standards. They 
determine what qualifications we all need and I even was sent 
to training shortly after I was elected. I'm going to be honest 
with you, most of us grumbled about it, ``why are we doing 
this? What are we doing this for?'' And on February 7th, we 
were extremely glad that we did because what otherwise would 
have been, would have been a state of mass confusion. When 
confronted with that site, that event immediately after this 
thing had occurred, it would take you enough time just to 
absorb it. And to be able to have that training, that stuff 
that's in the back of your head, in your subconscious come 
forward and say, ``now I know what I have to do'' was 
invaluable.
    Again, the only clearinghouse for incidents that could 
filter into this training system would be at the federal level. 
They're the only ones who could say this happened in the Gulf, 
that happened at the ConAgra plant. This natural disaster 
happened over here. This terrorist attack happened over here. 
And this is what we've learned from all these things.
    Ms. DeLauro. What happens when those funds are cut?
    Mr. Giuliano. Well, one, you don't update your training, 
and two, you don't have the ability to quote often stage. We do 
exercises and that information comes in from those sources. If 
the funds are cut, we don't have the resources to even do the 
exercises that keep us kind of at a higher edge. So you talk 
about what happened on this and everything that happened before 
and what could have been done. I don't think anybody saw it 
coming. I don't think even the workers on the site saw this 
coming. It happened that quickly.
    When you look at, for example, the photos of the January 
30th blow down right here, that one--what I was told was that 
was textbook, nothing went wrong with that. Now it's hard to 
believe that eight days later everybody got stupid and did it 
wrong. So something extremely small must have occurred that 
wasn't immediately obvious that something was going wrong. 
Nobody picked up on it. And look at the devastating result. So 
your margin for error, very, very tiny in these types of 
things.
    I noticed that maybe not directly address the question 
about training, but what you're dealing with, sometimes in any 
event when you see them coming, great, you can kind of stop 
them. But most of these things you don't see coming. How are 
you going to respond immediately and you're not sure what's 
happening. You've got emergency responders on their way to the 
site trying to figure out while they're going there what 
they're going to be facing when they get there. So a lot of 
that preparation has got to kick into gear on your way and 
beforehand.
    Ms. DeLauro. Thank you.
    Mr. Courtney. Mr. Murphy.
    Mr. Murphy. Professor Corbett, you've been on the hot seat 
for much of today, so I'll put you back for the final round of 
questions. What I heard you say with respect to where you think 
OSHA should step in is in gaps where the NFPA or the ICC has 
not sufficiently protected the public.
    And I wonder if that is realistic or possible, or whether 
we need a full substitution for the current rulemaking and 
current standard-setting process, whether we really can expect 
to have OSHA be knowledgeable on a weekly, monthly, or yearly 
basis what gaps exist when they're not really in charge to 
begin with of these safety standards or whether we need a 
wholesale substitution of regulatory authority where OSHA or 
some other federal entity steps in, rather than--I heard what 
you may be suggesting which is a concurrent responsibility 
between private groups and then when they screw up, the Federal 
Government.
    Am I wrong to suggest that maybe we should be thinking in a 
little bit more ambitious terms?
    Mr. Corbett. Well, I testified before the House Science 
Committee twice in the wake of 9/11 and the first hearing I 
think it was Congresswoman Sheila Jackson-Lee actually brought 
up that exact question, shouldn't we be actually doing this at 
the federal level rather than relying on the NFPA?
    I can remember sitting at that table just like I am now and 
literally feeling the room move and the tension that went up, 
skyrocketed in there. There are benefits to the process that 
exists now because you do bring a lot of people to the table 
that have specific knowledge, but there are these situations 
that arise that, you know, shows the dark underside of this 
process that things like this happen and we end up having to go 
to the government, have the feds take the lead on it.
    Personally, I would have no problem if the Federal 
Government were to assume this responsibility. I don't know 
that they want to do that. There's all sorts of states' rights 
issues here.
    I will say one thing in response to Judge Nevas' comments. 
Many years ago, a similar situation with the NFPA, we had a 
situation in Newark, New Jersey in the 1980s where there was a 
large tank that overfilled from a pipeline, a gasoline tank. An 
explosion occurred, a worker was killed and one of the most 
fundamental issues was monitoring the level of gasoline inside 
this million barrel tank basically and the New Jersey group, 
the New Jersey Fire Director, and several people went to the 
NFPA and said, ``look, why can't we have a manual gauging of 
these tanks? We have to have some kind of automated system,'' 
and the NFPA Technical Committee turned them down too, back in 
the '80s.
    As I say, that's the reason this comes up every few years, 
the same kind of issues. So my personal perspective, I would 
certainly support the government taking this over.
    Mr. Murphy. Judge Nevas, on your recommendations to the 
Siting Council, the Siting Council is not really a construction 
safety organization. It's a siting organization, and there are 
safety concerns, obviously, inherent in siting, but do you 
worry about asking the Siting Council to get involved in maybe 
an area that they are not completely familiar with? Is that 
asking too much?
    Mr. Nevas. Not at all. I think they can draw on outside 
experts if they think they need them. But I think what we're 
recommending is practical, common sense suggestions as to how 
to prevent this, time limitations on how long the worker can 
work there, whether or not you're going to use natural gas or 
nitrogen or air. To that point, Congressman Murphy, my 
understanding is that when you blow with natural gas you can 
accomplish the goal of clearing your lines in the matter of a 
couple of days. If you use nitrogen, or some other agent, it 
can take a couple of weeks. So obviously from the contractor's, 
the builder's point of view, he wants to get it done quicker. 
That doesn't mean it's safer, obviously.
    So I think the Siting Council can take a very practical, 
common sense approach. They can look at the recommendations of 
our Commission. They can draw on other experts to make 
suggestions to them. And then they can implement those 
suggestions and recommendations very clearly and very concisely 
when they renew this permit and say these are the conditions 
under which this permit is being renewed and you've got to do 
all these things and we're going to watch you and monitor you 
to make sure you do them.
    Mr. Murphy. And finally, if I may, to the Mayor and the 
Chief, construction is back up and running, the plant is 
scheduled to be online in the spring or summer of next year, I 
believe. Can you talk for just a few seconds to the extent that 
you believe things have changed there or how things have 
changed with respect to your relationship on the site? Are you 
confident that some lessons have been learned and that there's 
a different level of safety sensitivity on the site?
    Mr. Badamo. I think there definitely is. Obviously, 
whenever any tragedy happens, you learn from the mistakes that 
were made previously, you grow from those and I believe they 
are moving forward with those, with that in mind. They are 
moving forward. The construction process is continuing, the 
rebuilding process is continuing. They are expected to be done 
tentatively some time in April of next year, if everything goes 
accordingly as they move forward.
    As far as our relationship, our relationship has only grown 
to become more inclusive, not that we were excluded before, but 
we are definitely more included in some of the things. And 
again, like Mr. Corbett has said earlier, we don't have 
expertise in all of these processes. Over those 21 days, I 
learned a heck of a lot about gas pipes and blows and things 
that I never even dreamt that I would ever have an experience 
with, so we do our best. And during that day we relied on them 
and their safety procedures, even though we were presented them 
to be safe. They have made other changes in processes and I 
think that this site is actually going to become a starting 
point for the future of building power plants because I think 
they're going to work towards attempting and utilizing newer, 
safer practices that can be employed in the future.
    Mr. Nevas. Mr. Chairman, can I just add something?
    Mr. Courtney. Sure.
    Mr. Nevas. Derek Phelps, who is the chair of the Siting 
Council is here and he just passed me a note and I'd like to 
tell you what he says in this note. ``This past week, we, the 
Siting Council, received Kleen Energy's request to extend its 
certificate for construction. It includes a commitment to 
comply with all, the panel that I chaired, recommendations. 
This Tuesday, the Council will take up a motion to reopen and 
consider the recommended action and the hearing is tentatively 
scheduled for August 3rd.''
    So it's going to get done and it's going to get done 
quickly and efficiently and competently. And Connecticut can be 
a leader in this area under the leadership of Derek Phelps and 
others on his Council and other people who have an interest in 
this, including people at this table.
    Mr. Bresland. Mr. Chairman?
    Mr. Courtney. Sure.
    Mr. Bresland. May I make a comment? At our hearing this 
evening, we will have an expert who has a lot of experience in 
the issue of this sort of natural gas blowing and has done it 
over the years and has converted himself to not doing it any 
more. He'll be talking to us about the issues of using nitrogen 
instead of natural gas. And I anticipate that he will say that 
it's less expensive and more efficient to use nitrogen rather 
than natural gas so it will be interesting to hear and we'll 
have an opportunity to question him when he testifies this 
evening.
    Mr. Courtney. Great. Thank you, Mr. Bresland. And thank 
you, Mr. Phelps, for sharing that update.
    Mr. Mayor?
    Mr. Giuliano. Mr. Chairman, there is another power plant in 
Middletown that is under construction right now. They're 
building two peaking generators. They've advised us that their 
blow downs will be done with nitrogen. Their engineers simply 
don't like natural gas. They just deem it too risky. So I think 
the industry is catching on that while purging, while doing 
this blowdown with natural gas at Kleen Energy might have 
seemed like a good idea at the time, in retrospect, the loss--
as I said, it's obviously something very, very minor that 
changed the whole picture, caused loss of life, loss of 
property, loss of limb. It's just not worth it. It's just not 
worth it.
    Mr. Courtney. Again, clearly, the people in the State of 
Connecticut's awareness and sensitivity to this issue was 
raised dramatically, but as committee staff can verify, there 
still are other power plants across the country that are still 
using natural gas and that's why I think we have work to do too 
on this side of the microphone.
    And for the record, I just wanted to share also which the 
staff reminded me is that NFPA was invited to be here today. We 
didn't issue subpoenas for this hearing, but they declined the 
opportunity to testify, but obviously we had some great input 
from Professor Corbett.
    Did you want to make one final comment and then we'll start 
to wrap up?
    Mr. Corbett. Just to follow up with Congressman Murphy's 
question. I just would encourage the congressional delegation 
to consider exactly what we just talked about because there's a 
lot of history of unfortunately disasters happening at one 
place and it's geographic. The changes only are made in this 
case in Connecticut. We've had that happen. With the overfill 
of big tanks, New Jersey's Fire Code carried that for years and 
the rest of the country did not. So it could happen in 
California, Alabama, what have you.
    Speed is important, but also recognize we need to get it 
across the country.
    Mr. Courtney. And obviously with 125 of these plants going 
up----
    Mr. Corbett. Right, there are going to be other places.
    Mr. Courtney. Thank you. For the purposes of final remarks, 
I wanted to defer to the Congresswoman for the City of 
Middletown and I want to again thank the witnesses for their 
great testimony here today, Rosa.
    Ms. DeLauro. I want to say thank you to the Chairman and to 
my colleague, Chris Murphy, and John Larson, who is here this 
morning as well. I want to say thank you to the committee staff 
and my staff for your efforts in putting this together. I want 
to particularly thank the witnesses. As I said a moment ago, 
it's striking the candor, the clarity and the concreteness of 
your recommendations about how we should try to move forward. 
You have given us real direction and with the wrap up comments 
that you all have made and with Siting Council, with the 
hearing tonight, I think we can move forward.
    I appreciate what you said, Professor Corbett. We have to 
make these standards national. This cannot be 50 different 
kinds of procedures. They have to be national in order to 
ensure the safety of the men and women who work in these 
facilities and are constructing these facilities. To that, I 
want to just say again thank you, but especially to you, Jodi, 
because we owe it to you. We owe it to the families of the 
victims to act on what we've heard this morning.
    You said something very poignant. Quite frankly, it 
harkened me back to listening to testimony right after Katrina, 
not Katrina, the September 11th, when a woman in Oregon said 
``my husband left in the morning and he didn't come back at 
night. It's your job,'' she said to us, ``it's your job to give 
us the confidence that when they go off in the morning that 
they're going to come home at night.''
    We cannot remedy the situation for you or for Tyler or for 
Dylan, but it is you and the other families that are our 
starting point and our ending point as we try to move forward.
    I think in these four months and I will say in great part 
due to the work of the CSB, Judge Nevas, of your work in the 
Commission that we do understand that there is a wide gap in 
the regulatory framework that needs to ensure worker safety. 
It's clear that we should not rely on voluntary compliance and 
voluntary self-regulation. It does not work, and that the 
practice of gas blowing or even gas purging should be regulated 
at the local, state, and federal levels.
    There is an inherent risk in this practice and we cannot 
allow more lives to be lost. Failure to act and I know this is 
true for all of my colleagues here, failure to act is not an 
option and that's why Mr. Courtney, Mr. Murphy, Mr. Larson, 
with this Committee, with Chairman Woolsey and Chairman Miller, 
that we intend to develop a legislative remedy.
    So I look forward to work with all of my colleagues and 
listening to state and local officials with whom we have worked 
closely with over the last several months to come to a remedy 
to this effort. So I thank you very, very much again for being 
here with us this morning.
    Mr. Courtney. Thank you, Rosa. On behalf of the Education 
and Labor Committee, I want to thank again all of the witnesses 
for their outstanding testimony. They have given us just 
fabulous information to take back and we look forward to 
working with you as the Subcommittee moves forward in terms of 
the recommendations and possible legislation that we'll move 
forward on.
    So I have to, according to the rules, state that as 
previously ordered, Members will have 14 days to submit 
additional materials for the hearing record. Any Member who 
wishes to submit followup questions in writing to the witnesses 
should coordinate with majority staff within 14 days and 
without objection, we are hereby adjourned. Thank you very 
much.
    [Whereupon, at 12:03 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
